<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                          TUESDAY, MAY 7, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:32 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Jeanne Shaheen (chairwoman) 
presiding.
    Present: Senators Shaheen, Hoeven, and Boozman.

                          LIBRARY OF CONGRESS

STATEMENT OF HON. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY ROBERT DIZARD, JR., DEPUTY LIBRARIAN OF CONGRESS

              OPENING STATEMENT OF SENATOR JEANNE SHAHEEN

    Senator Shaheen. Good morning, everyone. Welcome to the 
first subcommittee hearing on the legislative branch.
    I am Jeanne Shaheen, Senator from New Hampshire. I will be 
chairing this subcommittee for the next 2 years. I think of 
everyone on the subcommittee, only Senator Hoeven is returning. 
So it is nice to have Senator Boozman here this morning, and we 
will--hopefully at some point today or at some other hearing--
be joined by Senators Merkley and Begich as well. I am very 
pleased to be here with all of you, and looking forward to 
working with this subcommittee, and all of the agencies that we 
oversee over the next 2 years.
    Obviously, I would like to continue the long tradition that 
we have in this subcommittee of working closely together, in a 
bipartisan way, to write and pass a bill that both funds agency 
priorities and recognizes the very tight budget constraints 
that we are all still operating under. I believe with strong 
oversight and by working together, we can achieve both.
    Today is the first of four hearings that we are going to 
have over the next several weeks on the fiscal year 2014 budget 
request, and today we will receive testimony from the Library 
of Congress (LOC) and from the Open World Leadership Center 
(OWLC). I want to welcome our two witnesses.
    First, Dr. James H. Billington, who is the Librarian of 
Congress, and Ambassador John O'Keefe, who is the Executive 
Director of OWLC. Thank you both for joining us this morning. 
Dr. Billington, I also want to welcome your Deputy Librarian, 
Robert Dizard, Jr. Thank you, also, for being here.
    LOC's fiscal year 2014 budget request totals $605 million, 
which is an increase of $17.7 million or 3 percent more than 
the final fiscal year 2013 enacted level. Now, I understand 
that the budget request is very similar to what you have 
presented over the past several years, and that your primary 
requested increase in funding is for mandatory pay-related 
items and price level increases.
    Your budget proposal also would restore the funding level 
for the Copyright Office to the pre-fiscal year 2012 rescission 
level, which was not completely fixed in the fiscal year 2013 
continuing resolution. And there is also $5 million in funding 
to begin construction of Module 5 at Fort Meade, but that 
funding is part of the Architect of the Capitol's (AOC) budget.
    I also want to welcome Ambassador O'Keefe of OWLC. Your 
budget request totals $10 million, which is a $2 million 
increase over the final fiscal year 2013 enacted level. I look 
forward to your testimony on the impact of your program in the 
former Soviet Union, and your expansion into Egypt. As you are 
aware, and everyone here I know is aware, we are facing very 
difficult funding decisions for numerous critical programs, and 
I look forward to hearing your thoughts and ideas on how to 
move this program to the next step of self-reliance.
    Now, Senator Hoeven has arrived to join us. I gave you 
credit, Senator Hoeven, for being the only one who has any sort 
of institutional experience on the subcommittee this year.
    And I would like to turn it over to Senator Hoeven for his 
opening remarks.

                    STATEMENT OF SENATOR JOHN HOEVEN

    Senator Hoeven. Thank you, Madam Chairwoman. I appreciate 
it very much.
    I would like to thank both of our witnesses for being here 
this morning, both the Honorable Dr. James H. Billington, as 
well as Ambassador John O'Keefe. Appreciate what you do.
    Good to be here with you, Senator Shaheen and also you, 
Senator Boozman. Thanks for joining us.
    You are right. I have 2 years. The last 2 years, I have 
worked with our former chairman, Senator Nelson, on the 
legislative branch, so I do have a little bit of experience. It 
is great to see all of you, and thank you for the important 
work that you do, and the really good work you do.
    Once again, we are confronted with the same challenges we 
had last go-round, of course, and that is making everything 
work in these times of tight budgets. And so, my approach will 
pretty much be the same as it was in the last session, and that 
is to give you as much flexibility as possible to do the very 
best job that you can with your supervisors. You know, we 
obviously are going to be dollar-challenged, but that is no 
surprise to anyone.
    So we have got to prioritize and I know you will. I know 
that this is why you are here today--to talk about your 
priorities. And to the extent we can, I think we want to try to 
help with those priorities. We will have some of our own.
    One of the things we worked very hard on in the last 
session was funding for the Capitol dome, which needs to be 
updated and repaired, and is of great importance, but is also 
very expensive. So to make that work in the context of your 
other capital needs, as well as your ongoing operating costs, 
is no small challenge.
    So I know there will be issues and the reality is there are 
going to be some things that you are probably not going to do 
that you would like to do, but that is the reality we face. And 
so, again, other than some of the priorities that, I know the 
chairwoman and myself will have, perhaps Senator Boozman and 
others, which we are going to try and make work. My approach 
will be to try to work with you to provide as much flexibility 
within how we expend those dollars so that you can do the very 
best job possible because, certainly, I regard you as the 
experts in what you do. And so, I want to empower you to the 
very best with the resources we have.
    And Madam Chairwoman, I look forward to working with you 
very much. Thank you.
    Senator Shaheen. Thank you very much, Senator Hoeven.
    Senator Boozman tells me that he does not have an opening 
statement, so we will begin with our witnesses. I will ask if 
you could try and keep your remarks to 5 minutes, and then I 
will ask each of the members of the subcommittee to do 5-minute 
questions as well to try and make sure that we can move things 
along this morning.
    So if you would begin, Dr. Billington.

             SUMMARY STATEMENT OF HON. JAMES H. BILLINGTON

    Dr. Billington. Thank you Madam Chairwoman, Senator Hoeven, 
Senator Boozman, and members of the subcommittee.
    I am glad to testify before you this morning on LOC's 
mission and budget. All of us at LOC are grateful for the 
support that you, and this subcommittee, give to your library.
    The Congress of the United States has been, quite simply, 
the greatest patron of a library in human history. Through 
thick and thin, more than 212 years, the Congress has enabled 
LOC to acquire, preserve, and make accessible the largest, most 
wide-ranging collection of recorded human knowledge ever 
assembled anywhere by any one institution.
    The Congress has also made its library the sole copyright 
depository of the United States of America, and therefore, the 
closest thing to a mint record of the free cultural and 
intellectual creativity of the American people.
    The Library of Congress is, first of all, the de facto 
national library of the United States. It supports the entire 
library system of America with its cataloguing, and its multi-
formatted preservation research, its free interlibrary loans. 
We have also already become a large-scale, free resource for K 
through 12 education and lifelong learners by putting online 37 
million primary documents of American history and culture 
together with clear, authoritative explanations by our 
curators.
    Over the last year alone, LOC provided the research 
references service to half a million individuals onsite, by 
telephone, or remotely. Approximately 1.7 million people 
visited LOC, and our massive preservation program lengthened 
the useful life of nearly 6 million items in our collection.
    We have brought educators during this same period from 33 
States here to attend our Summer Teacher Institutes, which we 
have been doing for quite a number of years, and reached out to 
more than 25,000 other teachers who participated in our 
partner's professional development events in 43 States. And 
finally, we attracted one-quarter of a million participants to 
our 2-day National Book Festival on the Mall.
    Now, the Library of Congress also provides America with 
three distinctive, one of a kind services: the Congressional 
Research Service (CRS) is the principal research arm for the 
legislative and oversight work of the Congress itself; the U.S. 
Copyright Office for innovative creators; and free national 
reading resources for the blind and physically handicapped.
    The Library's Congressional Research Service, for instance, 
provides exclusively to all Members of Congress, as you know, 
objective, nonpartisan information and analysis of legislative 
and public policy issues, responding last year to more than 1 
million such requests.
    The Library's Copyright Office plays a fundamental role in 
the $932 billion segment of the U.S. economy that produces and 
distributes content. And it administers U.S. copyright law, 
publicly documenting the ownership of more than half a million 
American works last year.
    We provided 25 million reading materials, free of charge, 
to the blind and physically handicapped all over America 
through their local libraries.
    In our fiscal year 2014 budget request, we are seeking only 
to maintain funding levels for current services adjusted only 
for mandatory pay raises and price level increases, a 3-percent 
increase.
    We are already doing more with less. Since fiscal year 
2010, LOC has sustained a reduction of $86 million, or 13 
percent of our base. I have described in my longer submission 
to this subcommittee, the serious effects these decreases are 
having on what is an important and irreplaceable part of our 
Nation's strategic information reserve, as we are living in the 
Information Era.
    We now have 1,335 fewer staff than 20 years ago, which was 
before we even began our massive digitization program. We are 
asking that the Congress help us to maintain LOC's core 
services for the good of the Nation now, in the midst of this 
Information Age, and for the future of American leadership in 
an increasingly knowledge-dependent world.
    I am especially mentioning, Madam Chair, the overarching 
importance of funding Module 5 at Fort Meade, which is in the 
AOC's budget. It is desperately needed in order to preserve, 
store, and provide access for Congress and the American people 
to our unique, and now, overflowing collections.

                          PREPARED STATEMENTS

    So Madam Chairwoman, and Senator Hoeven, and Senator 
Boozman, and the subcommittee in general, thank you again for 
your support of LOC, and for your consideration of our fiscal 
year 2014 request.
    [The statements follow:]

             Prepared Statement of Hon. James H. Billington

    Madam Chairwoman, Senator Hoeven, and members of the subcommittee: 
It is an honor to provide this testimony to the Subcommittee's new 
Chairwoman, Senator Shaheen.
    The Library's budget request seeks support only to maintain current 
mission-critical services. We have not requested program increases, but 
we have included inflationary adjustments based on our fiscal year 2013 
continuing resolution base funding level.
    Madam Chairwoman, the Library of Congress is the largest and most 
wide-ranging collection of the world's recorded knowledge ever 
assembled anywhere by any one institution, and also the closest thing 
to a mint record of the cultural and intellectual creativity of the 
American people. It was created and has been sustained for 213 years by 
the Congress of the United States. The Library has served the Congress 
directly for nearly 200 years with the Nation's largest law library, 
and for nearly 100 years with its primary research arm: the 
Congressional Research Service.
    Congress's Library is in many ways an embodiment in our Capitol of 
the distinctively American ideal of a knowledge-based democracy. We 
have already become a large-scale, free, educational resource for our 
K-12 educational system by placing online more than 37 million primary 
source digital files of our Nation's history and culture together with 
clear explanations by our curators.
    For two decades your library has been training teachers and 
librarians in the effective use of these multi-medial resources. Our 
National Digital Library/American Memory project empowers teachers and 
motivates students. Even at surprisingly early ages, children begin 
asking their own questions rather than struggling to memorize somebody 
else's answers, which too often leads to their tuning-out of learning 
altogether.
    Congress's Library, which is America's oldest Federal cultural 
institution, has become a very innovative institution for keeping our 
democracy dynamic in the information age. And we are doing all of this 
with 1,300 less staff than we had 20 years ago, before we had begun our 
program both for putting online our best collections and quarterbacking 
a congressionally mandated national program with now more than 290 
partner institutions for preserving the growing tsunami of important 
material digitized elsewhere.
    It is becoming increasingly challenging to sustain our unique 
leadership role in the three core necessities of any library, but 
particularly in a library that serves the entire American people by (1) 
acquiring important records of human knowledge and creativity, (2) 
preserving them, and (3) making them maximally accessible. ``Memory, 
reason, and imagination'' were the three categories into which Thomas 
Jefferson organized his private library, which became the seed bed for 
the Library of Congress's universal collections and unique curatorial 
staff.
    With combined budget cuts since fiscal year 2010 totaling $86 
million (or 13 percent), we are now at the point where we are having to 
reduce to some degree all of these three key functions that we provide 
for America, both onsite and online. This involves further reductions 
to our staff, which currently account for 66 percent of our overall 
annual budget and 91 percent of the budget of the Congressional 
Research Service. In the current budget environment, the Library is 
risking a decline in our core services at precisely the time our 
mission is becoming more important than ever for America.
    If we miss 1 year's subscription to a scientific publication that 
we had acquired for 50 years, we lose not just one fiftieth, but half 
of its usefulness, which can never fully be recovered in the future. 
Reductions in staff also weaken our pioneering efforts to merge 
traditional and digital services into one-stop shopping for the 
objective and comprehensive information needed by the Congress and the 
Nation. We are now increasingly challenged to continue training the new 
type of librarian for the 21st century that we call knowledge 
navigators, and who will be responsible for replicating for the future 
the wisdom and judgment of our magnificent world class curators.
    These budget challenges have hit a critical point with the 
implementation of sequestration. Later in this statement I will address 
some of the specific consequences of the sequester, not just for the 
Library, but for the national interest of the United States.
    The Library is, quite simply, an irreplaceable asset for the United 
States. I have called it the Nation's strategic information reserve. It 
was for instance the only institution anywhere able to give back to the 
Afghan people enough copies of historical records of their own legal 
past to resume a tradition that had been eradicated by the Taliban. And 
the Library possessed the only paper produced in the U.S. Government 
that described from an obscure Arabic periodical the basic terrorist 
scenario followed on 9/11 before it happened.
    The Library of Congress is the largest legislative branch agency 
and it uniquely provides four primary services for the Nation, and, 
indeed the world: a de facto national library for the United States, 
the U.S. Copyright Office for innovative creators, the Congressional 
Research Service for the legislative and oversight work of the 
Congress, and a National Library Service for the Blind and Physically 
Handicapped.
    The Library of Congress supports the entire library system of 
America with its cataloging standards and services, its multi-formatted 
preservation research, and its creation and distribution of special 
reading materials for blind Americans, and the free access it provides 
the American people to primary documents of history and culture onsite 
and online.
    The U.S. Copyright Office administers U.S. copyright law, publicly 
documents the ownership of American works, and plays a fundamental role 
in the $932 billion segment of the U.S. economy that produces and 
distributes content.
    The Congressional Research Service provides non-partisan 
information and analysis of legislative and public policy issues to all 
Members of Congress.
    While some agencies are made up of bureaus or component 
organizations that could be cut out or scaled back without crippling 
the agency's ability to accomplish its mission, the Library of Congress 
is different. Nothing is ancillary. Each component relies on others--
and benefits from the diversity and specialized expertise of our 
skilled workforce.
    The role and potential of the Library of Congress is becoming even 
more important now than ever before in our history. Harnessing 
knowledge and creativity may well be more important to our economic 
future than anything else, but knowledge and creativity never stand 
still. We cannot stop or severely slow down the Library's work without 
beginning to degrade irreversibly our ability to sustain the Nation's 
intellectual and creative capital.
    Continuing to acquire a universal knowledge is, by necessity, a 
multicultural pursuit. Jefferson's library included material in more 
than a dozen languages, and the Library of Congress today has the most 
multi-lingual and multi-formatted collection in a world that is 
becoming increasingly more diverse and globally interdependent.
    We understand the imperative to cut Government spending. The 
Library has been ``doing more with less.'' Over the last 5 years the 
Library's total appropriation has increased only 2.6 percent, from 
$613.5 million to $629.2 million, and staffing levels this budget will 
support has declined by 348 FTE over the same period. The staffing 
level the Library will be able to support in fiscal 2013 after the 
sequester is 510 FTE less than our current authorized level.
    The budget reductions the Library has sustained over the past 
several years do not include the effective additional cut the Library 
has received as a result of increases in operating costs not addressed 
through cost-of-living and price-level increases. Corresponding 
reductions in staffing have made it necessary for us to explore other 
possible ways to sustain the core mission without uniformly degrading 
all services across the institution.
    Despite these efforts, and before facing the additional challenges 
of sequestration, budget reductions of the past 2 years had a number of 
unavoidable negative impacts, such as:
  --The loss of 24 CRS analysts and attorneys, including a key senior 
        intelligence analyst and senior Asia specialist. CRS no longer 
        has the flexibility to shift resources to develop new 
        analytical capacity nor to extend or expand research capacity 
        in demanding and complex areas such as health care, energy 
        development, military weaponry and financial regulation.
  --A 36-percent reduction in CRS expenditures for professional staff 
        development and an 18 percent reduction in research materials 
        such as subscriptions and databases.
  --A 25-percent decrease in obligation levels for the purchase of 
        library and law acquisitions and a 20 percent decrease in the 
        number of items purchased with these funds.
  --The loss of 22 staff providing curatorial service in multiple 
        divisions.
  --A decrease in the Library's production of catalog records by 
        approximately 50,000 in 2012. This affects every library in the 
        United States that relies on our creating these records for 
        providing access to their own collections.
  --Delays in processing copyright registrations potentially leading to 
        another backlog of pending claims, and negatively affecting 
        copyright-related commerce.
  --A reduction of 50 percent in our budget for converting the 
        extraordinary collections of the Library into digital formats 
        and making them freely available online to the American people. 
        (This is partly the result of mandatory requirements to 
        increase cyber-security.)
    And now we are addressing the additional impacts of the sequester. 
Since such a high percentage of the Library's Federal budget supports 
staff pay, it is virtually impossible to implement a 5-percent cut in 
fiscal year 2013 through reductions in the Library's discretionary 
nonpay resources alone. As a result, we are implementing a combination 
of additional staffing reductions, the imposition of three furlough 
days for all staff, and reductions in preservation work, information 
technology support, training, travel, supplies, equipment, and 
facilities management. Reductions made necessary by sequestration will 
require scaling back a wide range of programs, many of which fall under 
the rubric of core, mission-critical services that will directly affect 
the Congress and the American people.
    Specific impacts of sequestration and the rescission will include 
the following:
  --A reduction in the contract for preservation treatment of non-
        digital, paper-based collections items through mass 
        deacidification in fiscal year 2013 and fiscal year 2014, which 
        will result in a 40-percent decrease in deacidification 
        capacity for General Collection material, from 250,000 to 
        150,000 volumes treated per year, and a 20-percent reduction in 
        deacidification of special collection materials, from 1,000,000 
        to 800,000 sheets treated per year. Treating fewer items will 
        result in more collections remaining in a fragile state and 
        precluding their future use by researchers. This reduction will 
        also jeopardize the Library's goal of preserving 5 million 
        items, and delay the scheduled material deacidified over a 30-
        year time span.
  --Binding of books will be severely reduced; resulting in damage to 
        the collections and the curtailment of interlibrary loan, as 
        well as a significant reduction in business for the Library's 
        commercial binding vendors.
  --Basic operational services such as security, cleaning, food, trash 
        removal, and pest control will be cut back, lessening health 
        and safety protections for staff and visitors.
  --CRS will be unable to maintain current levels of coverage of public 
        policy issues, response times to congressional requests will 
        lengthen, and ``rush'' requests will be difficult to meet. CRS 
        will also be unable to answer some requests that require 
        certain data and research materials.
  --The U.S. Copyright Office's registration program will develop a 
        backlog of Copyright claims waiting processing and a related 
        decrease in fee income to support ongoing operations. The 
        Copyright staff will have to curtail participation in some 
        international negotiations and other policy efforts important 
        to U.S. trade interests.
  --Services for the blind and physically handicapped under 2 U.S.C. 
        Sec. Sec. 135a, 135a-1, 135b will be reduced as fewer copies 
        are made available, per title, for books contracted for in 
        fiscal 2013. The average number of copies drops from 800 per 
        title to 700 per title. Patrons will be impacted as there will 
        be a decreased availability of the most popular new titles.
    As you know, implementing employee furlough days is only a stopgap 
measure; but unless we implement furloughs in fiscal year 2014 and 
fiscal year 2015, we will have to decrease further or discontinue other 
mission-critical services.
    While I have listed some of the negative impacts of past and 
potential future budget cuts, there has been an important strategic 
bright spot amid the practical difficulties posed by our current budget 
environment: It has encouraged the entire Library to work better 
together in pursuit of Library-wide goals. As one example, we have made 
major strides in improving the Library's Web presence in a unified 
effort that has brought together existing--not new--resources and 
expertise from across the Library. Our new beta site, Congress.gov, 
providing legislative information to the Congress and the American 
people, is an example of this collaborative work.
    The Library has also continued to seek efficiencies in other areas 
of it operations. For example, the Library's Integrated Library System 
(ILS) investment in early 2000 continues to be mined for workflow 
efficiencies to reduce time and staff needed for key operations. ILS 
was recently employed to facilitate the processing of materials for 
mass deacidification and commercial binding, streamlining the 
documentation and inventory controls on materials that leave the 
building to be processed by the vendor and the system for assuring that 
all items have been returned. The ILS software had in the current 
system a batch process (``Pick and Scan'') where with a few keystrokes 
all items are updated to the appropriate status of availability and 
documentation of preservation action taken. In the past, the process 
that took on average nine key strokes per item now takes only two key 
strokes per item. With some 8,000 to 10,000 items leaving the building 
each week for one of these two preservation actions, the savings in 
staff time to document has been substantial. Continued innovations by 
Library staff and in the technology they use have helped offset budget 
and staffing reductions and minimize the reduction of preservation work 
that is being accomplished.
    The Library's current principal budget needs include sustaining 
collection acquisitions, constructing preservation facilities at Ft. 
Meade, and providing for the critical services of the U.S. Copyright 
Office, and of CRS expertise for the Congress.
    Sustaining acquisitions is the basic prerequisite for fulfilling 
the Library's mission. The current budget environment has slowed the 
Library's acquisitions and preservation efforts, creating gaps in the 
collections that may never be recovered. This will affect the Library's 
capacity to provide research and analysis for the Congress and its 
ability to provide the American public with access to many materials 
that are unattainable anywhere else.
    Continuing to implement the Fort Meade master plan through the 
funding of Module 5 is essential for preserving and making accessible 
the Library's unparalleled collections. The master plan contemplates 
the construction of 13 collections storage modules, only four of which 
have been completed. This project is currently 10 years behind 
schedule, and Module 5 is an urgent Library need to be funded through 
the Architect of the Capitol, under Library Buildings and Grounds, as 
he has requested since 2010.
    The U.S. Copyright Office administers the national copyright 
registration and recordation systems and serves as the principal 
advisor to the Congress on issues of domestic and international 
copyright policy, in accordance with title 17 of the U.S. Code. The 
Office's electronic registration service directly supports both the 
Nation's copyright commerce and our people's creative innovations. The 
current budget environment puts this service at risk of significant 
setbacks in active participation in policy efforts that are important 
to America's leadership in the information age.
    Maintaining CRS' expertise is critical to fulfilling the Library's 
highest priority: service to the Congress with timely, objective, 
authoritative, and confidential research and analysis in support of its 
legislative and oversight responsibilities.
    The budget reduction in fiscal year 2012 left CRS at its lowest 
staffing level in more than three decades. Although CRS has responded 
by expanding analysts' portfolios to cover expertise gaps, the recent 
additional reductions increases the difficulty of providing the 
specialized skills and policy expertise needed to support the growing 
policy demands placed upon the Congress. More than 10,000 bills have 
typically been introduced in recent Congresses along with hundreds of 
hearings. We will give high priority to protecting services that CRS 
performs for the Congress in this and future budgets
    Madam Chairwoman, the Congress of the United States has been the 
greatest patron of a library in human history. Each year, the Library 
is privileged to serve directly all members and committees of 
Congress--and millions of Americans, often in ways that would otherwise 
be unavailable to them. We want to continue these services at the level 
of quality that distinguishes our institution. Through networks of 
partners, we can participate in new projects that will make new 
friends--for America abroad, such as our free new World Digital Library 
in seven languages that has already been adopted by UNESCO and 
attracted 30 million largely young viewers from around the world. We, 
as a nation, need what the library is uniquely doing.
    We will work hard and creatively with whatever the Congress can 
provide--but with the fervent hope that history will not record that 
this one-of-a-kind still-innovative and proactive creation of the 
American Congress did not unintentionally and almost invisibly reach 
the point where it began a downhill slide from which it would never 
quite recover.
    Madam Chairwoman, Senator Hoeven, and members of the subcommittee, 
I thank you again for your support of the Library.
                                 ______
                                 
                 Prepared Statement of Mary B. Mazanec

    Madam Chair, Senator Hoeven, and members of the subcommittee: Thank 
you for the opportunity to present the fiscal year 2014 budget request 
for the Congressional Research Service (CRS) and to briefly describe to 
you the support we have provided the Senate and the U.S. Congress this 
past year. I believe that we are succeeding in the task that the 
Congress gave us--to provide authoritative and objective information, 
research and analysis that inform the legislative agenda--even while 
operating under constrained budgets and limited resources.

                        SUPPORT FOR THE CONGRESS

    Legislative Agenda.--During the past year, the Congress confronted 
complex economic and social issues that divided the country and 
generated at times fierce debate. In recent weeks, teams of analysts 
and attorneys have been supporting Senators and committees during the 
contentious debates on immigration reform and gun control, which are 
continuing. Both the majority and the minority have relied on CRS 
experts to analyze various proposals and offer an objective perspective 
on these oftentimes difficult congressional deliberations. CRS Reports 
and seminars have illuminated the myriad issues that frame both 
debates. The CRS Web site has organized the Service's offerings on 
these issues in a way that facilitates access to readily available 
analysis, information, and experts. CRS can be utilized as a trusted, 
authoritative source for accurate information and analysis on 
contentious topics such as these.
    The Congress has been, and will continue to be, confronted with 
significant economic and budget issues. During the past year, CRS 
provided analysis, consultative support and testimony on the many 
issues flowing from the passage and implementation of the Budget 
Control Act (BCA), sequestration, the debt ceiling and the budget and 
appropriations process. CRS provided a comprehensive suite of written 
products on the potential economic consequences of the ``fiscal 
cliff,'' sequestration scenarios and the operation of the BCA.
    The Supreme Court's decision in June upholding the 
constitutionality of the Affordable Care Act generated considerable 
interest. CRS attorneys advised the Congress on the implications of 
this landmark decision. Attorneys analyzed such specific legal issues 
as the requirement that health plans and health insurers provide 
coverage for contraceptive services, the legality of federally 
facilitated health insurance exchanges offering premium tax credits, 
the effects of the Court's invalidation of the Medicaid provisions of 
the act, and, more broadly, the implications of the Court's decision 
for the jurisprudence of Federalism and Congress' commerce power. I 
would like to add that CRS research was also timely. A Legal Sidebar 
posting briefly analyzing the Court's decision was on our Web site 
within hours of the ruling and CRS attorneys wrote three additional 
postings in the subsequent week. Policy analysts also continued to 
advise on the operation of specific provisions of the act, including 
those pertaining to private insurance, Medicare and Medicaid, and 
healthcare delivery, and provided information on the development of 
regulations, new programs and grants, and financing under the law. CRS 
continues to generate policy and economic analysis as the 
implementation of the act proceeds and both State and Federal 
governments execute the act's various provisions or seek adjustments to 
its operation.
    CRS has continued to analyze key issues related to the 
reauthorization of the farm bill, including farm commodity support, 
conservation, trade, rural development, nutrition, credit, energy, 
livestock, and horticulture and organic agriculture. CRS experts 
explained the intricacies of current farm and food policy and helped 
identify and analyze issues and options for revamping the Federal farm 
safety support system. In addition to providing seminars on all the 
farm bill titles, agriculture analysts assisted with markup and briefed 
Members and congressional staff throughout the deliberations. Our 
series of seminars explaining aspects of the farm bill continues into 
this session of the Congress.
    The Congress enacted two major pieces of transportation legislation 
during the past year, the Federal Aviation Administration Modernization 
and Reform Act reauthorizing the FAA, and the reauthorization of 
Federal highway and public transportation programs. Assistance by CRS 
analysts included helping Members draft amendments and explaining the 
potential ramifications for individual districts as well as policy 
implications for the national transportation system.
    CRS analysts also assisted Members and committees in understanding 
the technologies involved in removing shale gas and oil as part of 
continued efforts to expand the U.S. energy base. The industry and 
market are adapting to newly found supplies of natural gas and the 
concerns related to integrating more natural gas into the economy. 
These new technologies depend on advanced drilling techniques such as 
hydraulic fracturing. Debate over water contamination, water demand, 
and gas emissions associated with these technologies led to the 
introduction of several bills to increase the regulatory oversight of 
this technology. Others in Congress expressed concern about potential 
overregulation at the Federal level. Throughout deliberations on the 
technology, its potential impact and appropriate regulation, CRS 
analysts collaborated to ensure that the environmental, technical, and 
economic issues were addressed effectively and objectively. This debate 
continues into the 113th Congress.
    Global challenges occupied much congressional attention this past 
year and promise to remain prominent on the congressional agenda. As 
the Congress witnessed changes in the Arab world in countries ranging 
from Tunisia to Libya to Egypt and Syria, CRS offered in-depth 
assessments of ongoing developments and their implications. Besides 
offering country-specific and regional analyses, CRS examined U.S. 
policies toward these transitioning states and options for support and 
assistance. The Congress continues to call on the Service as it reviews 
the dilemmas related to the conflict in Syria, such as whether and how 
the United States should support the opposition or intervene. CRS also 
provided analysis concerning the security and funding of United States 
diplomatic facilities and personnel abroad in the wake of the deadly 
raid on the compound in Benghazi, Libya.
    CRS defense experts assessed the Defense Department's new strategic 
guidance intended to reshape the Department's priorities, activities, 
and budgets in terms of future challenges, geographical priorities, and 
missions. CRS also analyzed nuclear proliferation challenges and 
international cyber security threats and responses. Service analysts 
supported congressional oversight and funding debates surrounding such 
issues as the future of military operations in Afghanistan. Two 
assessments by the Service of the Army's drawdown and the history and 
analysis of the concept of ``hollow forces'' assisted the Congress in 
its deliberations on Pentagon budget reductions.
    I have just touched on some of the areas on which CRS expertise was 
brought to bear this past year. Most of these issues will continue to 
occupy congressional attention in the 113th Congress. CRS is prepared 
to make its considerable expertise and array of products and services 
available at all stages of the legislative process. Our legislative 
planning process identified more than 150 issues that may be on the 
agenda for the first session of this Congress. We consulted with 
leadership offices in both the Senate and the House to ensure that we 
had adequately captured the array of issues that will confront the 
Congress in the coming year. Our Web site contains menus of products 
for each issue and the relevant CRS analysts, attorneys and information 
professionals are identified. Congress has immediate access to Service 
analysis, information and expertise on the issues likely to be on the 
legislative agenda. Of course, we are also prepared to quickly mobilize 
Service expertise in response to unanticipated issues and events that 
occur.
    Legislative Information System.--CRS has collaborated with the 
Library in developing and launching a beta version of a revamped 
Legislative Information System (Congress.gov). The new site--which 
provides essential legislative documentation to both the Senate and the 
House--contains more comprehensive information and enables easier 
navigation than the former system. The public version of the site will 
also provide enhanced public access to legislative information and will 
replace the former THOMAS system.
    CRS Website.--We plan significant enhancements to our web site this 
coming year. We are improving our search functionality to enable 
congressional users to more quickly and precisely find what they need, 
whether it is a relevant report, a CRS program, or a particular analyst 
to consult. The home page of CRS.gov will enable easier navigation and 
access to the various products and services CRS has to offer. Staff 
from both the Senate and the House have participated in testing the new 
features and offering suggestions for improvements to the site. We 
recently introduced the Legal Sidebar--noted above in the context of 
legislative support for the Affordable Act--which presents short, 
timely legal analyses of current topics of interest to the Congress and 
we are developing other product formats and web-based content. We also 
continue to work on improving access to our web site on mobile devices 
and have worked closely with legislative branch information officials 
in developing requirements for such access.
    Senate Research Center.--One year ago, CRS launched the Senate 
Research Center in the Russell Building, repurposing the old reference 
center into an education and outreach facility to better serve our 
clients and to provide a more convenient venue for CRS seminars and 
briefings for Senators and staff. We have presented nearly 100 programs 
with more than 900 attendees during that time. Staff have also found it 
a good place to meet with CRS experts and to place requests for CRS 
assistance. We expect to build on this success in the coming year.
    Constitution Annotated.--2013 marks the centennial of the 
publication of the Constitution of the United States of America: 
Analysis and Interpretation (familiarly referred to as CONAN). The 
volume is prepared by CRS and regularly updated as a Committee Document 
of the Senate Rules Committee. It is the premier treatise on 
constitutional law and traces Supreme Court jurisprudence on every 
article and amendment of the United States Constitution. The Government 
Printing Office will shortly publish the centennial edition of the 
publication.

                           BUDGET CHALLENGES

    The foregoing has briefly surveyed the support CRS has provided the 
Congress over the past year in terms of the issue areas covered and 
technological advances that enhance our products and services. We 
remain an organization that provides the Congress what no other 
organization can--objective, authoritative, confidential and timely 
information, research and analysis to support the legislative, 
oversight and representational activities of Members and committees. 
The breadth and depth of our expertise are unparalleled and the 
institutional memory of our staff is an invaluable resource for the 
Congress. We have, however, lost approximately 9 percent of our 
analyst, attorney and informational professional corps in the last 2 
years. This significant reduction in staffing has resulted in a 
corresponding reduction in the amount of consultative interactions CRS 
has conducted with the Congress during this time period. The number of 
personal consultations and the amount of tailored work for clients--the 
kind of close support that CRS is known for and is most vital in a 
fast-moving and complex legislative environment--have decreased at a 
rate similar to the rate of staff attrition. Future budget cuts will 
only exacerbate this situation and continue to have a measurable effect 
on the level of service CRS can provide to the Congress.
    Analysts and information professionals have expanded the portfolio 
of subject areas they cover with resultant effects on timeliness and 
expertise. We have gaps in coverage of critical areas of legislative 
interest. Without replenishment of our analytical capacity, I fear that 
we will not have sufficient coverage in the complex subject areas that 
the Congress is likely to debate and consider in the future.
    In addition to the loss of staff, resources that support our 
research and analysis have been depleted in the face of budget 
cutbacks. Research materials have been significantly reduced. Travel 
and training, which provide professional development opportunities for 
staff, have been reduced. We also have instituted a pared down, low-
cost awards system to recognize staff who excel in their work. We 
continue to involve staff in discussions of how the Service can operate 
more efficiently and how we can leverage technology to provide the 
products and services that our clients want and expect.

                               CONCLUSION

    During 2014, CRS will celebrate its centennial. As a unit within 
the Library of Congress, the largest repository of knowledge in the 
Nation, the Service has been supporting the work of Congress, 
contributing to an informed national legislature for almost 100 years. 
We appreciate the support of the committee in continuing to recognize 
the vital importance of the authoritative, objective and confidential 
products and services CRS provides. CRS also looks forward to its 
second century of service to the Congress and the legislative process.
                                 ______
                                 
                Prepared Statement of Maria A. Pallante

    Madam Chair, Senator Hoeven, and members of the subcommittee: I 
appreciate the opportunity to submit the fiscal year 2014 budget 
request of the United States Copyright Office. This is an important 
period for the Copyright Office. As Register, I have recently testified 
about the need for major updates to the copyright law, so as to ensure 
the law remains effective and flexible in the 21st century. I further 
testified that because a 21st century law will also require a 21st 
century agency, the Copyright Office itself must evolve to meet the 
needs of the American public.
    On April 24, 2013, the Chairman of the House Judiciary Committee 
announced that he will commence a comprehensive overview of copyright 
law, including the Copyright Office itself. More generally, it is a 
very busy time in copyright policy, both domestically and 
internationally, and the Office works very closely with Senate offices 
as well as across the greater U.S. Government, on a routine basis. In 
doing so, it draws upon a small, expert staff that has been 
increasingly called upon to do more with fewer resources. However, 
because many American businesses rely upon the services of the 
Copyright Office, and because copyright transactions form a major 
portion of the national and international economies, the Office will be 
unable to keep pace with technology, user demand and, more generally, 
the state of the digital economy, without sufficient future resources.

                            PROGRAM SUMMARY

    The Copyright Office plays a major role in facilitating both the 
commercial and noncommercial markets of copyright transactions, by 
administering the national registration and recordation systems and by 
providing expert policy advice to the Congress and to other Federal 
agencies, including the Office of the U.S. Trade Representative and the 
Department of Justice. With respect to operations, it has become clear 
to me, and to many who interact with the Office, that both business and 
technological improvements are necessary. I have therefore spent much 
of my 23 months as Register administering a series of special projects 
that are designed to evaluate and inform the future Copyright Office 
and the 21st century copyright system.
    To this end, the Office has engaged stakeholders of all kinds, from 
copyright owners to users of copyrighted works, technology experts, 
consumer groups, legal scholars, and others, both through targeted 
meetings and through opportunities for the public to submit written 
comments. In short, stakeholders are extremely supportive of the 
forward-looking groundwork the Office is doing, but they rightly want a 
better, stronger, and more technologically nimble Copyright Office as 
soon as possible. The Office can fund some improvements with the fees 
it receives for services; including the fees it charges authors and 
other copyright owners to register their works. However, not all of the 
services of the Office are for copyright owners. If its databases are 
to be fully indexed, freely searchable--and most importantly, 
functional in the digital environment--the Office will continue to 
require appropriated dollars. The role of the government in collecting, 
maintaining, and making available copyright data cannot be 
underestimated. These services fuel any number of major sectors in the 
national and international economies.

                            FISCAL YEAR 2014

    The Copyright Office, which is already operating leaner than in 
previous years, needs to maintain existing spending levels to ensure 
adequate staffing in the short term. The Office has a relatively small 
workforce in proportion to its duties, but like all agencies it must 
compete with the private sector for the most highly-skilled members of 
its workforce.
    For fiscal year 2014, the Copyright Office requests a total of 
$52.952 million, offset by fee collections of $28.029 million, and 
licensing royalty collections of $5.590 million, applied to the 
Office's Licensing Division and the Copyright Royalty Judges. 
Specifically, our requests are as follows:
  --A 2.4 percent increase ($1.071 million) over fiscal year 2013 for 
        Copyright Basic to support mandatory pay-related and price 
        level increases affecting administration of the Office's core 
        business systems and public services;
  --A 2 percent increase ($100,000) over fiscal year 2013 in offsetting 
        collection authority for the Copyright Licensing Division to 
        support mandatory pay-related and price level increases 
        affecting the administration of the Office's licensing 
        functions;
  --A 2.2 percent increase ($32,000) over fiscal year 2013 for 
        Copyright Royalty Judges to support mandatory pay-related and 
        price level increases; and
  --$737,000 to restore the Copyright Office's base funding.\1\
---------------------------------------------------------------------------
    \1\ The enacted budget for fiscal year 2012 directed the Copyright 
Office to use reserve funding (collected from fees for services) to 
offset expenses, effectively reducing our spending ratio of 
appropriated dollars to fees at the same time that fees and receipts 
were lower than anticipated. This offset was partially restored in 
fiscal year 2013. The Office is requesting a restoration of the balance 
to its base appropriations to ensure sufficient funding for operations 
in fiscal year 2014, including the ability to cover necessary staffing 
and critical technology upgrades when fees fluctuate. As outlined in 
Priorities and Special Projects of the United States Copyright Office: 
2011-2013 (www.copyright.gov/docs/priorities.pdf), the Office is in the 
midst of a multi-year evaluation of fees, services, technology, and 
other issues that will inform its future management strategies.
---------------------------------------------------------------------------
                       COPYRIGHT AND THE ECONOMY

    In terms of the larger U.S. economy, authors, songwriters, book and 
software publishers, film, television and record producers, and others 
depend on the copyright registration and recordation systems to protect 
their creative works and business interests. Based on a study released 
in 2011 using data from 2010,\2\ these core copyright sectors--whose 
primary purpose is to produce and distribute creative works--accounted 
for more than 6.36 percent of the U.S. domestic gross product, or 
nearly $932 billion. The core copyright industries also employed 5.1 
million workers (3.93 percent of U.S. workers), and that number doubled 
to more than 10.6 million people (8.19 percent of the U.S. workforce) 
when those who support the distribution of copyrighted works were added 
into the equation. Moreover, these numbers do not account for the many 
American businesses that rely on information about fair use, the public 
domain and other provisions of law, for example, in some information 
and technology sectors.
---------------------------------------------------------------------------
    \2\ Stephen E. Siwek, Copyright Industries in the U.S. Economy: The 
2011 Report, prepared by Economists, Inc. for the International 
Intellectual Property Alliance (2011), available at http://
www.iipa.com/copyright_us_economy.html.
---------------------------------------------------------------------------
              CHALLENGES OF THE CURRENT FISCAL ENVIRONMENT

    The Office is navigating an increasingly challenging budget 
environment at the very time it must improve aging technology systems 
and upgrade business processes to meet the demands of the digital age. 
From 2010 to 2013, the Office has absorbed a 20.7 percent reduction in 
its appropriation. The overall effect was a 8.5 percent reduction in 
total budget authority, which takes into account offsetting 
collections. In fiscal year 2012, the combination of the reduced 
appropriation and fees that were lower than expected required the 
Copyright Office to make significant cutbacks. The Office substantially 
reduced its information technology budget, indefinitely postponing 
critical upgrades to the Office's electronic registration service that 
directly supports copyright commerce and affects both authors and users 
of copyrighted materials. The Office also reduced its workforce by 44 
staff members--more than 10 percent of the entire staff--through 
Voluntary Early Retirement Authority and Voluntary Separation Incentive 
Payments programs.
    The accumulated results of budget and sequestration cuts have taken 
a toll. Declining budget support has impacted or will impact the Office 
in the following ways:
  --Although the Office is currently understaffed, it has reduced new 
        hiring and reduced non-personnel expenditures. These cuts have 
        very real and negative impacts on the Office's ability to meet 
        its current demands, and having already made significant and 
        repeated cuts to nonpersonnel spending leaves precious little 
        flexibility to absorb future cuts.
  --The Office is concerned that continued funding reductions will have 
        an adverse impact on the Office's registration program. It is 
        quite possible that shortfalls could create a backlog of 
        copyright claims. However, more to the point, the growth and 
        migration of the registration system is essential in the 
        current digital environment. The system must get much better.
  --Further reductions will lead to an adverse impact on the Office's 
        ability to participate in international negotiations and other 
        policy efforts that are important to U.S. trade interests. It 
        has already declined participation at major international 
        meetings.
  --Cuts in IT investment and contract support would delay planned 
        releases for the Office's electronic registration system, eCO, 
        including mandatory updates to address security issues. The 
        Help Desk for internal and external stakeholders who use eCO 
        would be further scaled back, increasing wait times and user 
        dissatisfaction. While the Office is unlikely to be able to 
        support all anticipated technical upgrades within its base 
        budget, further decreases to IT contract support will 
        indefinitely postpone the Office's planning for new IT systems 
        deemed critical to the future of Office, including:
    --An online system for filing and processing copyright-related 
            documents submitted for recordation. Records of such 
            documents are essential to stakeholders who need to 
            determine who owns copyrighted works.
    --A searchable online catalog of pre-1978 digitized copyright 
            records. Making these records widely available will help 
            address the problem of works whose owners are unknown 
            (often referred to as orphan works).
    --An online registry that identifies the designated agents of 
            Internet services for receipt of takedown notices so the 
            services can limit their liability for user-posted content.
  --The Office has already implemented significant cuts in training to 
        cover budget gaps in recent years. A dramatic long-term 
        decrease in training funds will severely hamper the Office's 
        ability to develop and retain the highly skilled staff it must 
        have to ensure continued delivery of quality public service.

                              RESERVE FUND

    The Copyright Office budget authority includes the ability to spend 
or invest the fees it collects from services, e.g. for registration of 
copyright claims. Title 17 provides that ``such fees that are collected 
shall remain available until expended.'' 17 U.S.C. Sec. 708(d)(1).
    Approximately two-thirds of the budget comes from said fees. In 
some fiscal years, fee collections exceed the spending authority 
granted for that particular year, while in other years fee collections 
fall below the spending authority. Fees in excess of expenses are 
collected and maintained in a reserve fund to be used by the Office in 
years during which fee collections fall short. Given the 
unpredictability of fee receipts from one year to the next and the 
possibility of unplanned expenses occurring during any given year, it 
is critical that the Copyright Office maintain sufficient reserve funds 
to deal with contingencies effectively. The reserve is often under $5 
million; this may seem a relatively small figure but these funds may 
nonetheless mean being able to patch a technology system or staff an 
important study for the Congress.
    In recent years the Office's request for appropriated dollars has 
been reduced in proportion to the amount of money it has in the 
business reserve fund at the end of the year. Appropriated dollars are 
essential to fund the many activities that serve the general American 
public and American commerce that cannot reasonably be funded by fees 
for copyright registration and other services for copyright owners. We 
therefore respectfully submit that the Copyright Office budget includes 
sufficient spending authority as to fees collected, and sufficient 
appropriated dollars, but that a reserve be available to meet 
shortfalls in protected receipts so that public services do not suffer.

                             LAW AND POLICY

    The Register of Copyrights is the principal advisor to Congress on 
issues of domestic and international copyright policy. The Copyright 
Office prepares major studies for Congress on highly complex issues, 
presides over administrative hearings and public roundtables, testifies 
before the Congress and coordinates with intellectual property offices 
in the executive branch. The Office works closely with both copyright 
owners and users of copyrighted works to sustain an effective national 
copyright system that balances interests on both sides in issues 
ranging from enforcement to fair use. As noted above, the Register and 
the Copyright Office are now involved in a multi-year effort to update 
the copyright law and to improve Copyright Office services.
    The Copyright Office participates in important U.S. negotiations 
relating to intellectual property, for example, treaties and free trade 
agreements, at both the bilateral and multilateral levels. The Office 
also works with the Department of Justice on critical copyright cases.

                            FISCAL YEAR 2012

    In fiscal year 2012, the Office provided ongoing support to Members 
of Congress upon request and through formal assignments. The Office 
prepared a major report on Federal copyright protection for sound 
recordings fixed before 1972 and published a nuanced analysis and 
discussion document on issues relating to the mass digitization of 
books. In addition, the Office completed the fifth triennial rulemaking 
proceeding pursuant to 17 U.S.C. Sec. 1201 to designate certain classes 
of works as exempt from the prohibition against circumvention of 
technological measures that control access to copyrighted works (see 
www.copyright.gov/1201). The Copyright Office is currently presiding 
over a formal study of the challenges of resolving small copyright 
claim disputes and possible alternative adjudication systems. A final 
report on this study is scheduled to be delivered to the Congress by 
the end of September 2013. On another congressional matter, the Office 
is preparing a study of how current copyright law affects and supports 
visual artists and how a Federal resale royalty right for visual 
artists would affect current and future practices of groups or 
individuals involved in the creation, licensing, sale, exhibition, 
dissemination, and preservation of works of visual art.
    On the international front, the Register and a senior member of her 
staff were part of the U.S. delegation to the World Intellectual 
Property Organization's diplomatic conference that resulted in the 
signing of the Beijing Treaty on Audiovisual Performances in June 2012. 
The Office continues to participate on U.S. delegations to WIPO 
regarding a variety of global issues.

                      REGISTRATION AND RECORDATION

    Registration Program.--In fiscal year 2011, the Copyright Office 
reduced the backlog of unprocessed registration applications that 
accrued following the Office's transition to electronic processing in 
2007. The Office ended fiscal year 2012 with approximately 195,000 
claims on hand, of which approximately half were on hold awaiting 
further action by the filer. As the backlog of claims on hand 
diminished, the Office also experienced faster processing with the 
average processing times for claims filed online falling to 2.5 months, 
and for claims filed on paper applications to less than 6 months.
    Although the improved processing times have held firm thus far for 
claims that do not require correspondence with the filer, the Office 
experienced a steady growth of unprocessed claims throughout fiscal 
year 2012 that has continued through fiscal year 2013. The growth is 
directly related to loss of staff to process these claims. At current 
staffing levels, the growth in unprocessed claims will likely continue 
unabated and lead to increased processing times and other problems the 
Office experienced during the previous backlog.
    Ultimately, the Register is aware that the United States 
certificate of copyright registration must be accurate and has taken 
steps to ensure that the copyright owner, that person's licensees, and 
courts throughout the world may rely upon it. The registration program 
will increasingly require attention to ensure that both the 
registration certificate and the public record are sound. The Register 
will release a major update to the Compendium of Copyright Office 
Practices no later than October 2013. The Compendium is the major 
resource for the examining staff, the public, and the courts when it 
comes to questions of registration practice and related legal issues.
    Document Recordation.--In keeping with the Register's plan in 
Priorities and Special Projects of the United States Copyright Office: 
2011-2013, efforts to reengineer the document recordation function 
commenced in early fiscal year 2012. Throughout 2012, the Office 
engaged in a series of stakeholder meetings and other forms of 
outreach, including user surveys, to gather feedback that will serve as 
the foundation for developing business and technical requirements in 
fiscal year 2013. The Office's goal is to build an online filing and 
processing system for document recordation that will provide much 
enhanced convenience and improved processing time for document filers. 
Document recordation is of paramount importance to the copyright 
community and providing electronic and fully searchable functionality 
is a major goal. To be clear, recordation is the public system by which 
licensees and assignees of copyrights, for example, rights holders or 
heirs to a copyrighted work, may assert their ownership and make 
themselves findable. Unlike registration, recordation permits the 
updating of ownership information over time and plays a major role in 
providing a useful chain of title for individual copyrighted works.

                               LICENSING

    The Copyright Office helps administer certain statutory license 
provisions of the U.S. Copyright Act, which involves setting royalty 
rates and terms and determining the distribution of royalties for those 
licenses. These licenses cover activities including the making and 
distribution of phonorecords of musical works, secondary transmissions 
of radio and television programs by cable television systems and 
secondary transmissions of network and non-network stations by 
satellite carriers. The licenses also encompass the import, 
manufacture, and distribution of digital audio recording devices and 
media. The Office's primary clients with respect to the statutory 
licenses are the copyright owners and users of copyrighted works that 
are subject to statutory copyright licenses. For some statutory 
licenses, the Office is responsible for collecting and investing 
royalty fees for later distribution to copyright owners, examining 
accounting documents, and providing information to interested parties; 
for others, the Office records the license as part of the public record 
and the royalties are handled by outside parties.
    In fiscal year 2012, the Office's Licensing Division collected 
nearly $312 million in royalty fees and distributed approximately $835 
million in royalties to copyright owners, according to voluntary 
agreements among claimants or as a result of determinations of the 
Copyright Royalty Judges. The Division also began a multiyear business 
process reengineering program designed to decrease processing times for 
statements of account, implement online filing processes, and improve 
public access to Office records. The new processes will be implemented 
and refined throughout fiscal years 2013, 2014, and beyond.

                              ACQUISITIONS

    In addition to the registration program, whereby works deposited 
through the registration program are made available to the Library of 
Congress, the Copyright Office also administers the mandatory legal 
deposit of works published in the United States, whereby certain 
publishers must deposit two copies of published works with the Library 
of Congress. In fiscal year 2012, the Office managed the combined 
deposit of more than 636,430 copies of books, motion pictures, and 
other creative works for the Library's collection, valued at 
approximately $30 million, which the Library would otherwise have had 
to purchase.
    Because more and more journals, magazines, and newspapers are 
``born digital,'' the Copyright Office is working with the Library and 
with publishers to obtain and manage serials that may only appear in 
electronic formats. The Office's current work sets the stage for the 
Library's broader electronic acquisition strategy, which will 
ultimately enhance and diversify the Library's collections to capture 
and reflect American digital culture.

                   THE 21ST CENTURY COPYRIGHT OFFICE

    For more than 18 months, the Copyright Office has been engaged in a 
wide variety of activities outlined in the Register's Priorities and 
Special Projects of the United States Copyright Office: 2011-2013. 
Staff throughout the organization have been heavily involved in various 
working groups tasked with studying and developing recommendations for 
addressing an array of policy and administrative challenges. The 
recommendations developed through those projects will inform the 
Register's strategic plan that will be announced in October 2013. The 
Register's Office also launched a major training initiative in 2013--
the Copyright Academy program--by which staff of all levels take 
targeted classes on copyright law and office operations. The Register's 
Office also continued the highly successful Copyright Matters lecture 
series. Launched in 2011, the series is designed to educate staff on 
the practical implications of copyright law and provide a free and 
balanced community forum for discussion. Administration of these 
programs has zero budget impact, yet they serve to provide staff with 
an outstanding education in copyright law, policy, and practice.
    Substantive progress has been made on many of the projects and 
policy studies. Highlights include:
  --Significant progress on the comprehensive revision of the 
        Compendium of Copyright Office Practices. As noted above, 
        publication of the revised version remains on schedule for 
        October 2013.
  --Business process reengineering planning for the document 
        recordation function is moving from the information gathering 
        and analysis phase to the development of business and technical 
        requirements that will inform the design of an online filing 
        and processing system.
  --The Office continues to move forward on its multiyear effort to 
        digitize the entire inventory of paper copyright records for 
        works registered between 1870 and 1977. At the beginning of 
        fiscal year 2013, more than 22 million cards from the Copyright 
        Card Catalog had been imaged, processed through two-step 
        quality assurance, and moved to long-term managed storage. The 
        Office has also engaged in research on innovative data capture 
        models such as crowdsourcing and advanced character recognition 
        software in planning for building a searchable index for the 
        digitized records.
  --The Office has made significant progress in evaluating its current 
        technical processing capabilities and gathering feedback from 
        experts and stakeholders from across the copyright community to 
        develop a strategy to upgrade its existing systems and extend 
        its capabilities, including in the area of business-to-business 
        connectivity.
  --The Office is partnering with the Library's Office of Strategic 
        Initiatives to implement a new information architecture for the 
        Office's Web site, www.copyright.gov. The revised Web site, 
        which will launch in late 2013, will feature improved searching 
        and a modernized design.
  --The Office has issued two notices of inquiry soliciting comments 
        relating to its study of alternative remedies for small 
        copyright claims. A final report will be delivered to the 
        Congress by September 30, 2013.
    As work on the special projects continues in fiscal year 2013, the 
Office is embarking on a strategic reorganization to better align its 
business functions and management structure with long-term business 
needs. Implementation of the reorganization plan will occur later this 
year.

                           FEES FOR SERVICES

    On October 1, 2011, the Office commenced a study of the costs it 
incurs and the fees it charges with respect to the registration of 
claims, recordation of documents, and other public services, pursuant 
to its authority under 17 U.S.C. Sec. 708(b). The statute requires that 
the Office establish fees that are ``fair and equitable and give due 
consideration to the objectives of the copyright system.'' 17 U.S.C. 
Sec. 708(b)(4). The Office is following two guiding principles for 
determining fees--the establishment of sound fiscal policies and a 
budget derived largely from offsetting collections, and the pricing of 
services at a level that encourages participation in the registration 
and recordation processes.
    The Office will deliver the fee study to the Congress in the coming 
months, with expected implementation later this year.
    When a new fee schedule is implemented, the Office historically 
sustains a decrease in fee receipts for up to 6 months. This 
anticipated decrease along with unanticipated fluctuations in fee 
revenue throughout the year, make the Copyright Office's prior year 
receipts a critical tool for managing a fee based budget. In the short-
term, expenses are very difficult to adjust, so the Office occasionally 
has to rely on prior year receipts to fund ongoing operations, when fee 
receipts unexpectedly decline.

                               CONCLUSION

    Madam Chair, I want to thank you for your consideration of our 
budget request today and for the subcommittee's past support of the 
U.S. Copyright Office. Thank you in particular for considering the 
funding we require to sustain a first-rate staff and meet necessary 
expenses, enabling us to perform our core duties under the law and 
build the infrastructure necessary to support America's copyright 
system in the years ahead.

    Senator Shaheen. Thank you very much, Dr. Billington.
    Ambassador O'Keefe.

                      OPEN WORLD LEADERSHIP CENTER

STATEMENT OF AMBASSADOR JOHN O'KEEFE, EXECUTIVE 
            DIRECTOR, OPEN WORLD LEADERSHIP CENTER
    Ambassador O'Keefe. Thank you, Chairwoman Shaheen, Senator 
Hoeven, and Senator Boozman.
    Thank you for your support and for giving me time to 
outline the value of the Open World Leadership Center.
    Let me begin with something Dr. Billington, our founding 
chairman said at our board meeting, ``The Open World target is 
young and emerging. Their influence is not visible, but it is 
happening. From the periphery in, from below not above, Open 
World is a model for how you structure an exchange program that 
can be effective with emerging countries.''

                    WHY FUND THE OPEN WORLD PROGRAM

    Why fund the Open World program at the fiscal year 2012 
level? The answer to that is that Open World is a resource, an 
asset, and an investment for both members and their 
constituents.
    As a resource, we directly connect Members of Congress and 
constituents to rising leaders, giving them a deep appreciation 
of the United States. Eighty-three percent of our delegates met 
with members or staff. We have helped create or sustain 
international partnerships, 54 in this past year alone. Demand 
from your constituents for our programs is three, and sometimes 
four, times the supply.
    As an asset, our extensive network of hosting organizations 
and our 20,000 alumni throughout Eurasia allow us to start 
programs quickly and effectively. These programs are low cost 
with clear objectives that produce measurable results.
    Issues that are critical to Members of Congress inspire our 
programming, and at the request of members, we will expand to 
several new countries this year.
    Our placement in the legislative branch keeps us above the 
often necessary disputes that strain executive branch relations 
with a country. Open World has the ability to function where it 
is difficult for other programs.
    Additionally, Open World boasts an international network of 
leaders that have been influenced by U.S. models of good 
governance. As one of our Russian alumni said recently, quote, 
``The Open World program is a unique, and probably the last, 
window of opportunity for exchange between the active parts of 
the Russian and American societies. In the course of my public 
work, I have come to know hundreds of people who are Open World 
alumni. Have they all become democrats as a result of their 
trip? I doubt it. But have they come to believe in supporting 
democratic initiatives in Russia? I am sure they have.''
    By creating and sustaining lasting partnerships, we 
cultivate a sense of shared purpose. It is the extraordinary 
Americans in your States that create effective programs and 
provide enthusiastic hosting that harnesses the power of local 
communities to build these enduring relationships.
    Our hosting communities in every state open the eyes of our 
delegates in ways that no amount of foreign assistance can, at 
a fraction of the cost. We leverage the power of representative 
government, of you and the 7,200 host families in 2,200 
communities in all 50 States that have been in our program.
    So as an investment, we offer extraordinary bang for the 
buck. We remain at 7 percent overhead and we have just received 
our seventh consecutive clean audit. Over 80 percent of our 
funds are spent here in the United States, much of it at the 
local level.
    There are 222 exchange programs in the executive branch 
scattered among 63 departments and agencies with a total 
funding of $2.1 billion. Congress has Open World with funding 
at .005 percent of those programs. And there is a steady return 
on the investment.
    For example, we brought judges and lawyers on Open World 
programs in advance of the introduction of jury trials in the 
Republic of Georgia. We linked them to American judges and 
lawyers. Among those who came were the defense attorney, the 
judge overseeing jury selection and media relations, and the 
advisor to the judge of the first jury trial ever conducted 
there. Georgia's smooth transition to a jury trial system is 
due, in no small part, to the practical guidance given by 
American host judges during the Open World program.
    And because of our reputation as an effective, results-
driven, legislative branch program, the Council of Judges in 
Turkey came to us to bring their jurists on Open World, 
offering to cover more than 60 percent of the costs.

                           PREPARED STATEMENT

    As a final note, the U.S. Ambassador to Russia, Michael 
McFaul, wrote to me, ``As I travel throughout the regions in 
Russia, I find that in every community I visit, the Open World 
alumni are the most enthusiastic, the most engaged, and the 
most committed to working with the United States.'' As you can 
see, we fill a critical niche that others cannot duplicate.
    So thank you, again, Senators Shaheen, Hoeven, and Boozman 
for allowing me to testify.
    [The statement follows:]

             Prepared Statement of Ambassador John O'Keefe

    Chairwoman Shaheen, Senator Hoeven, distinguished members of the 
subcommittee: I appreciate the opportunity to present testimony on the 
Open World Leadership Center's budget request for fiscal year 2014. The 
Center conducts the only foreign visitor exchange program for both 
chambers of the Legislative Branch. Congressional participation in our 
programs and on our governing board has made Open World a uniquely 
effective instrument for Members and their constituents in communities 
all across America. All of us at Open World are deeply grateful for 
your support.

                                OVERVIEW

    Since its inception in 1999, the Open World Leadership Center has 
focused on responding to the priorities of Congress and producing an 
exchange program that establishes lasting relationships between the 
emerging leaders of Open World countries and engaged Americans 
committed to sharing American values and practices that lead to stable 
countries accountable to their citizens. The Center strives to assist 
Congress in its oversight responsibilities and aids Congress in inter-
parliamentary and legislative activities while supporting international 
projects and partnerships of American citizens throughout the United 
States.
    The Open World program was originally designed to bring emerging 
Federal and local Russian political leaders to the United States to 
meet their American counterparts and gain firsthand knowledge of how 
American civil society works. Program participants experienced American 
political life and saw democracy in action, from debates in local city 
councils to the workings of the Congress.
    Today, the Center operates in 13 countries and, by the end of 2013, 
will have brought nearly 20,000 rising leaders to engage with Congress, 
other governmental officials, and their American counterparts in 
professional exchanges in more than 2,100 American communities in all 
50 States. The countries participating in the Open World program are 
strategically important to the interests of the United States 
Government, and many are growing economies where opportunities for 
foreign investment and trade increase yearly. The expanding Open World 
leadership network, in which young foreign leaders continue their 
relationships both with each other and with their American 
counterparts, gives the Open World program impact far beyond the 10-day 
program in the United States. With the continued support of Congress, 
Open World host families will once again open their homes to help 
sustain this highly successful congressional program.

                           OPEN WORLD PROGRAM

    The Open World Leadership Center is a resource for the Congress, 
directly connecting Members to rising foreign leaders and to the 
American constituents who host these Open World delegates. Open World 
is also an asset for Congress, using its extensive leadership networks 
abroad and hosting network in the United States to quickly respond to 
congressional interests in new countries. By creating and supporting 
lasting partnerships between young political, civic, and community 
leaders from here and abroad, Open World is an investment in America's 
future security.
    With the power of the more than 2,100 communities throughout 
America that have participated over the life of the program, the Center 
provides opportunities to enhance professional relationships and 
understanding between rising leaders of participating countries and 
their counterparts in the United States. It is designed to enable 
emerging young leaders to:
  --engage with government, business, volunteer, and community leaders 
        carrying out their daily responsibilities;
  --experience how the separation of powers, checks and balances, 
        freedom of the press, and other key elements of America's 
        democratic system make the government more accountable and 
        transparent;
  --develop an understanding of the American market-based economy;
  --learn how American citizens organize and take initiative to address 
        social and civic needs;
  --participate in American family and community activities; and
  --establish lasting professional and personal ties with their 
        American hosts and counterparts.

    Because Open World provides such high-caliber programs, 
participants return to their countries with a tangible appreciation of 
America's democracy and market economy. To that end, Open World refines 
and focuses on themes central to democracy-building to improve the 
quality of the program. The impact of the 10-day stay in the United 
States is multiplied by continued post-visit communication between 
participants and their American hosts, their fellow Open World alumni, 
and alumni of other United States Government-sponsored exchange 
programs.

                          OPEN WORLD SUCCESSES

    Open World sets strategic goals that reflect the interests of 
Congress and our American hosts and meets these goals:
  --Reaching a new generation of leaders.--Beginning in 2012, and in 
        consultation with the Center's Board of Trustees, Open World 
        began to focus on the younger generation in the post-Soviet 
        countries--a generation that is increasingly linked to the rest 
        of the world through new technologies, and searches for new 
        ideas for economic development and entrepreneurship and ways to 
        overcome the endemic corruption and poor governance in their 
        countries.
       Open World set goals to have 30 percent of its delegates in 2012 
        be under age 30 and to place many of these young leaders 
        together in delegations focused on legislative issues, 
        innovation, entrepreneurship, and rule of law. The Center 
        assembled an American advisory committee consisting of under-
        30-year-old professionals with extensive experience in Open 
        World countries to consult on program agendas, alumni 
        engagement, and administer post-program surveys.
       For 2012, Open World reached its goal with 30 percent of 
        delegates under age 30. Thirty-four specialized young 
        professional delegations from Russia and Ukraine were hosted in 
        themes such as city administration, anti-corruption, emergency 
        services, and media by their American counterparts in cities 
        throughout the United States.
       These young Eurasian leaders now maintain contact with each 
        other and their American counterparts through social media 
        groups set up by Open World.
       This innovative program has elicited enthusiastic responses from 
        both hosts and delegates. A host in Syracuse, New York, told 
        us:
       ``I commend Open World for its new approach of bringing younger 
        visitors, making it possible to introduce them to our country 
        while they are beginning their careers and enthusiastic about 
        their work. Hopefully, other young delegates will be as open-
        minded and interested. Their infectious enthusiasm really 
        sparked an extra enthusiasm from the professional hosts and on 
        the part of their home-stay hosts.''
  --One young professional employed by a civic initiatives NGO who was 
        hosted in Minot, North Dakota, was mostly interested in local 
        community activities in small cities and villages. According to 
        her, in Russia there is community activism in cities, but the 
        inhabitants of small towns and villages tend not to be involved 
        in civic activities. In North Dakota, she familiarized herself 
        with community involvement in resolving social issues in small 
        towns and she observed an emphasis on volunteerism and citizen 
        education and training.
       Her American experience was used in a project to encourage 
        volunteerism back home in rural Russia. She wrote a manual on 
        how to develop a community project and a volunteer brochure, 
        and created a directory of organizations needing volunteers, 
        with descriptions of their projects.
       Two other Open World delegates hosted in Minot are now involved 
        in a training and exchange program sponsored by the U.S.-Russia 
        Civil Society Partnership Program that promotes civic 
        engagement through local leadership development in rural 
        communities in both Russia and the United States.
  --Another young Russian Webmaster for a local radio station, who was 
        hosted in Louisville, Kentucky, was inspired by seeing how 
        American law enforcement, social services and volunteers 
        identify and respond to incidents of domestic violence. He 
        believes that the impact of domestic violence is still 
        dramatically unappreciated in Russia, so he produced radio 
        programs on domestic violence issues and initiated a meeting 
        with the regional Children's Rights Ombudsmen. His radio 
        station also began hosting a series of the debates among school 
        children on crucial civic topics. ``Resolve problems in 
        debates, not in fights'' became the motto of the debates.

    The Center responds to congressional interests and Member requests 
to begin exchange programs for leaders in countries new for Open World:
  --Turkey.--Ahmed Hamsici, the Vice President of the High Council of 
        Judges and Prosecutors of Turkey, and Executive Director 
        O'Keefe signed a Memorandum of Understanding on April 10 in 
        which the High Council will cover the costs of airfare, hotels, 
        and some meals in Washington and Open World will defray other 
        costs for a program that will bring over 100 judges to the 
        United States over the next year. The Turkish portion, based on 
        the historic costs of our programs, will amount to over 60 
        percent of total costs. The Turkish High Council will provide 
        nominations to the Embassy, which will chose the finalists. 
        Such arrangements also reflect how Open World creates 
        partnerships and identifies cost shares.
  --Mongolia.--At the same meeting, the Center's Board also approved an 
        expansion program with Mongolia based on a request from the Co-
        Chairs of the House Mongolian Caucus. The Center will host two 
        delegations of judges in the fall of 2013.
  --Kosovo.--The Board approved a request from the Co-Chairs of the 
        House Albanian Issues Caucus to initiate Open World hosting for 
        Kosovo National Assembly Members and staff as part of an effort 
        to promote the integration of the western Balkans with the 
        European Union and NATO.

    Open World also responds to congressional requests to host specific 
delegations from current Open World countries:
  --At the request of Senator Lamar Alexander, Open World hosted 25 
        physicians in support of a new health care partnership between 
        Tennessee and Kirov Region, Russia, spearheaded by former Open 
        World trustee Senator Bill Frist. Half of the Kirov delegates 
        visited research hospitals in Memphis, while the other half 
        visited medical teaching facilities in Knoxville. The delegates 
        have a wide variety of new practices and plans underway as a 
        result of their Open World experiences. Efforts initiated in 
        individual hospitals include allowing parents to visit ill 
        children, improving a patient referral system, and initiating 
        an electronic medical records system. A medical school 
        administrator is now encouraging medical students to volunteer 
        in understaffed hospitals.
  --In March 2012, Montgomery, Alabama, hosted its second Open World 
        delegation of Kazakhstanis involved in youth legislatures, 
        including the national Youth Parliament. This exchange, like 
        one conducted in 2011, resulted from an earlier meeting between 
        Representative Robert Aderholt and a Kazakhstani 
        parliamentarian visiting Washington, D.C., through Open World. 
        The central focus of the visit was participation in the Alabama 
        YMCA Collegiate Legislature sessions.

    Open World links Members of Congress to rising Eurasian leaders and 
their American hosts:
  --In 2012, there were 173 meetings between Members of Congress or 
        their staff and Open World delegations. Eighty-three percent of 
        2012 Open World delegations took part in these meetings, many 
        of which were arranged and attended by our active constituent 
        hosts. Last month, Chairwoman Shaheen and Senator Rob Portman 
        met separately on Capitol Hill with Open World delegations of 
        Serbian Members of Parliament before the Serbians left for 
        intensive programs on the role of legislatures in a democracy 
        in Manchester, New Hampshire, and Columbus, Ohio. Senator 
        Portman stated that he ``enjoyed the opportunity to discuss the 
        importance of democracy for a strong and free society and the 
        many challenges both of our countries face in an ever changing 
        world.''

    Since its inception, Open World has supported hundreds of 
partnerships and long-term projects between constituents and Open World 
delegates and was instrumental in the establishment of several others:
  --More than 90 States/communities in the United States have developed 
        or furthered partnerships and joint activities with regions/
        communities in Open World countries, including some 20 court-
        to-court partnerships. Local chapters of Rotary International, 
        Friendship Force, the U.S.-Ukraine Foundation, and other Open 
        World grantees have partnerships in several Open World 
        countries. In 2012, Open World hosted delegations linked to 54 
        partnerships with American organizations.

    Examples of recent partnership activities through Open World are:
  --A dynamic partnership between Maryland and the Leningrad Region of 
        Russia has grown from a judge-to-judge partnership to include 
        legislative and other governmental leaders. Maryland State 
        officials and representatives of the business community have 
        traveled to Leningrad on their own to further these ongoing, 
        constructive ties. The success of this partnership led U.S. 
        District Judge Richard Bennett to reinvigorate the sister-city 
        relationship between Baltimore and the port city of Odessa, 
        Ukraine. A 2011 Open World delegation visit led to high-level 
        reciprocal visit by members of the Maryland judiciary, 
        including Maryland's First Lady, Judge Katie O'Malley, in May 
        2012.
       For 2013, five delegations will visit Maryland, including one 
        connected to the Russian partnership and two to the Baltimore-
        Odessa partnership; the other delegations are from Moldova and 
        Tajikistan.
  --Since hosting a Ukraine higher education delegation, Umpqua 
        Community College in rural Roseburg, Oregon, has been actively 
        involved in a three-institution partnership agreement with 
        Uzhhgorod National University and Kremenchuk National 
        University. Since then, Umpqua has hosted two more delegations 
        from both Ukrainian universities. Two delegations from Umpqua 
        have traveled to Ukraine, one including an administrator, a 
        faculty member, and 11 jazz vocal students in March 2012 and 
        another including a college vice president, a dean, and two 
        faculty members who just returned to Oregon after renewing the 
        partnership agreement. Possible future activities include 
        distance learning, student exchanges, faculty exchanges, a 
        summer institute on peace and justice, an on-line English club 
        for students, and co-teaching of an international business 
        course.
       Open World host Peter Bober, Director of the Small Business 
        Development Center and Workforce Training at Umpqua, says that 
        ``the Open World Program is a fantastic opportunity for 
        community colleges who are interested in internationalizing 
        their institution while at the same time providing delegates 
        from former Soviet republics the opportunity to experience a 
        uniquely American educational structure. The economic 
        assistance from Open World allows community colleges the 
        opportunity to bring a wide diversity of international visitors 
        to their local campus and community.''
  --The Atlanta, Georgia-Tbilisi, Georgia, sister-city program was 
        dormant until a delegation of leading lawyers from the country 
        of Georgia traveled to Atlanta on Open World. This visit 
        resulted in a flood of privately-generated follow-up activity 
        between Atlanta and Tbilisi, including exchanges of university 
        and law school faculty and students and increased medical 
        exchanges. One Atlanta law firm, whose principal partner is 
        associated with an Open World grantee, has opened offices in 
        Tbilisi. That grantee, the Georgia to Georgia Foundation, has 
        done extensive work with the Atlanta-Tbilisi Sister City 
        Committee to help foster exchange and discourses between the 
        two cities.
  --Santa Clara County, California, and Moscow, Russia, have a sister 
        county partnership that was greatly enhanced by the visit of an 
        Open World Russian delegation studying best practices in child 
        welfare and foster care services. Continued contact with one of 
        the Russian delegates resulted in the launch of a mutually 
        beneficial training program to provide Moscow with the tools to 
        transform the Moscow orphanage care system into a foster care 
        system and to provide Santa Clara social services agencies with 
        cultural competency training to enhance their work with Russian 
        children and families in the community. In May 2012, a working 
        group from Santa Clara traveled to Moscow to develop a training 
        curriculum for Moscow social services professionals and to 
        consult with their Russian counterparts on the training for 
        enhancing cultural competency in Santa Clara County. Another 
        Open World delegation hosted through this partnership focused 
        on accountable governance for local government officials, 
        including an introduction to laws on public contracting, public 
        records, and open meetings for local legislative bodies.
       The Open World alumnus most involved with the child welfare 
        partnership is overseeing the opening of 32 centers in Moscow 
        to aid foster care youth transition to adulthood. These centers 
        are based on one she saw in Santa Clara County.
       There are plans to continue the partnership this fall with the 
        visit of another Russian youth services delegation to Santa 
        Clara County.
       Dave Cortese, a member of the County of Santa Clara Board of 
        Supervisors, told Open World that ``Santa Clara County has 
        found the collaboration in child protection issues with Moscow, 
        its Sister County region, to be particularly gratifying not 
        only because we have been able to share best practices in child 
        protection between the regions but also because we have been 
        able to establish ongoing partnerships.''

    Most importantly, Open World alumni return home and initiate 
projects that contribute to democratization efforts in their countries:
  --Volunteerism.--Open World has consistently selected young leaders 
        who are active in their communities. The Washington Post 
        recently featured the work being done to organize volunteers by 
        one of our Russian alumni from our 1999 pilot program (In 
        Russia, volunteers step up, 2/2/13). Despite pending 
        legislation to limit volunteer activity and a population 
        generally suspicious of volunteers, Yevgeny Grekov has started 
        a group called Volunteers on Wheels, which uses Facebook to 
        connect house-bound people with needs to drivers that can help 
        deliver goods or services.
  --Youth Volunteerism.--The Moldovan administrator of the ``Always 
        Together'' NGO that focuses on cultivating democratic values 
        and gender equality among local youth reports that her Open 
        World experience in Manchester, New Hampshire, this past 
        September built her confidence as a leader and inspired her to 
        redouble her efforts to recruit young volunteers. She recently 
        received a grant to implement her project entitled ``Inspiring 
        Youth: Learning Community Involvement Through Action.''
       She reports that ``[t]he idea for this project came during my 
        Open World visit. I was impressed by how actively engaged 
        American youth are, how eager they are to become volunteers and 
        how creative they are to raise funds for various social causes. 
        I wanted to inspire Moldovan youth to be as active and 
        responsible, to collaborate with local public administration 
        and involve entire communities in fund raising activities.'' 
        The project aims to instruct local volunteers who will then 
        create and run the ``Volunteer Corner'' in a local high school, 
        involving many more volunteers in various community development 
        projects.
  --Training Other Young Leaders.--Two Open World alumni from Ukraine, 
        one hosted in Iowa and the other in Utah, joined together to 
        prepare young Ukrainian political leaders and support staff for 
        the 2012 election campaigns by organizing the ``Summer Academy 
        of Political Leadership in Crimea'' last July. The Academy was 
        supported by the Friedrich Naumann Foundation in Ukraine. 
        During the event, one of the alumni made a presentation on his 
        Open World experience, focusing on how local American 
        communities are organized and the involvement of citizens 
        through public hearings and council meetings. Two other Open 
        World alumni, one hosted in Kentucky and another in West 
        Virginia, have participated in other seminars with these Open 
        World colleagues.
  --Rule of Law.--The Open World Leadership Center is proud of its role 
        in introducing Georgian jurists and legal professionals to the 
        American jury system. Georgia began implementing jury trials in 
        2011, and Open World celebrated this achievement by sponsoring, 
        through our privately-funded alumni program, a roundtable at 
        the Georgian Supreme Court in March 2012. The main speakers 
        were three Open World alumni who were central to the 
        implementation of Georgia's initial jury trials: a lawyer on 
        the defense team for the first such trial, hosted in Atlanta, 
        Georgia; a woman judge hosted in Central Islip, New York, who 
        oversaw jury selection and was responsible for media relations; 
        and the assistant to the presiding judge and a coordinator for 
        juries, hosted in Norfolk, Virginia. Georgia's smooth 
        transition to a jury trial system is due in no small part to 
        the practical guidance given by American host judges, both 
        during Open World exchanges and in independently funded 
        reciprocal visits to Georgia.

                        PLANS FOR 2013 AND 2014

    In addition to the 2013 Open World plans previously described, the 
Center plans to host parliamentary delegations from Ukraine and Georgia 
and parliamentary staff delegations from Georgia and Kyrgyzstan.
    Open World also continues to host several delegations of regional 
and local legislators. In February, local lawmakers from Ukraine hosted 
in Little Rock, Arkansas, reviewed voting procedures at the Pulaski 
County Election Commission and discussed city infrastructure issues 
with Little Rock Public Works Department staff. Meetings with State 
legislators focused on the legislative process and economic 
development. A session with the newly elected North Little Rock mayor 
covered topics ranging from municipal bidding procedures to citizen 
outreach. An aide to Senator Boozman discussed constituent relations 
and several State issues with the Ukrainians.
    A facilitator accompanying the delegation told Open World that 
``all of the delegates had a positive experience in the United States. 
Oftentimes they would speak with admiration of the transparency and 
accountability of the United States government agencies, as well as 
local community involvement in the decision process.''
    The Center signed a Memorandum of Understanding with the Supreme 
Court of Estonia and the Office of the Prosecutor of Estonia to cost-
share the expenses associated with the April 2013 travel of a 
delegation of three judges and one prosecutor from Estonia to Las 
Vegas, Nevada. They were hosted by U.S. Senior District Judge Lloyd 
George for a week-long program focusing on court activities related to 
the adversarial system, including jury-trial process, plea-bargaining, 
alternative dispute resolution, and the role of private law firms. 
Judge George took part in the Washington, DC, orientation of his 
Estonian guests and was honored by the Open World Leadership Center for 
his extraordinary service to the rule of law program in a ceremony 
attended by Senate Majority Leader Harry Reid, who recognized the 
importance of exchange programs in his remarks.
    For 2014, Open World will continue the initiatives described above, 
both in terms of responsiveness to congressional requests and in 
focusing on the younger generation of leaders in Open World countries. 
We will strive to find partnerships and other cost-sharing arrangements 
to maximize our effectiveness.

                            BUDGET OVERVIEW

    Open World offers Congress an extraordinary ``bang for the buck,'' 
serving as a model of efficiency, cost-effectiveness and value. The 
Center boasts an overhead rate of 7 percent with 93 percent of its 
annual expenditures going directly to program costs. The Center 
investigates every opportunity for savings and diligently manages its 
fiscal operations with a view to reducing costs while maintaining 
program quality.
    The Center employs best practices to develop the most cost-
efficient and effective means to accomplish its mission. The Center has 
developed internal controls to ensure program quality, including pre- 
and post-program report follow-up, weekly teleconferencing with its 
logistical contractor, and regular contact with grantees and local 
hosts. The Center uses a zero-based budget approach to every contract, 
every grant budget, as well as its annual operating budget. The Center 
actively seeks cost-sharing partnerships with other government 
initiatives whose missions complement ours. The U.S. Agency for 
International Development, the Department of Energy, and the embassies 
in Armenia, Turkmenistan, Ukraine, and Uzbekistan have all joined with 
the Open World Leadership Center in directly funding a number of 
delegations.
    Open World strongly encourages grantees to cost-share, making it 
part of the annual competitive proposal process. For example, in 2012, 
Rotary International hosted 20 Open World delegations (6 participants 
each) in 19 communities in 15 States through their local Rotary clubs. 
These local clubs, through volunteers, home stays, and other in-kind 
contributions contributed an estimated 45 percent of the total local 
cost of these delegations. The search for cost-sharing partners with 
common or overlapping goals creates an environment beneficial to all 
participants and allows Open World grant funds to go further. Indeed, 
the per-person cost to bring a delegate to the United States has 
steadily declined over the past few years as Open World increases its 
cost-sharing efforts, despite rising transportation and other costs.
    Open World grantee Supporters of Civil Society in Russia (SCSR), 
along with partner Moscow School of Political Studies, is another 
excellent example of a cost-share that helps defray the overall cost of 
the Open World program. The Moscow School of Political Studies provides 
the nominations of candidates for the program, many of whom are under 
the age of 30, to be hosted by SCSR in St. Louis, Missouri, and 
Chicago, Illinois. SCSR then contributes more than 50 percent of the 
program costs at the local level.

                             BUDGET REQUEST

    In this lean fiscal environment, the Center is committed to keeping 
costs down while maintaining program quality. When constructing the 
budget, however, one must consider the fact that in reducing the number 
of participants hosted, there comes a tipping point in terms of 
efficiency. Certain base costs remain whether bringing 500 participants 
or 2,000. Using economy of scale, it is the Center's experience that 
bringing 1,200 participants a year is that tipping point. Below that 
number, the program becomes less cost effective and the per-person cost 
rises. To that end, our budget request of $10,061,200 is based on 
bringing 1,200 participants in 2014.
    Open World spends its appropriation in two categories: Direct 
Program Costs and Administration Costs. Direct Program Costs includes: 
grants to host delegations in the United States; a contracted 
logistical coordinator; and the direct program portion of salary and 
benefits of D.C. and Moscow staff.
    Administration Costs includes administrative staff salaries and 
benefits, an interagency agreement with the Library of Congress for 
infrastructure services, small contracts for professional services, 
postage, telephone, cell phones, and office supplies and materials. The 
Center benefits from lower administrative costs due to its physical 
location in the Library of Congress.
    Despite rising base costs of transportation and contracts, the 
Center has not requested any increase in funding for fiscal year 2014. 
There are several reasons for this. First and foremost, cost-shares 
from Open World home hosts throughout America have risen steadily. The 
Center has also found partners willing to assume some international 
transportation costs, and it is expected that private donations will 
help sustain our work. In all, 25 percent of our resources will come 
from outside our legislative branch appropriation. It is this broad 
support, both materially and in spirit, that makes this program 
incredibly strong while allowing us to keep this request modest.
    The Center's fiscal year 2014 budget request breaks down as 
follows:

------------------------------------------------------------------------
                          Item                                Amount
------------------------------------------------------------------------
Direct Program..........................................      $9,690,200
    Logistical Contract.................................       5,720,000
    Grants/Other Hosting Costs..........................       3,285,000
    Salary/Benefits.....................................         685,200
Administration..........................................         773,400
    Salary/Benefits.....................................         408,250
    Services of Other Agencies..........................         182,000
    Professional Services...............................         146,650
    Miscellaneous Office................................          36,500
                                                         ---------------
      Total.............................................  \1\ 10,463,600
------------------------------------------------------------------------
\1\ The amount over $10,061,200 shown here will be covered by donations
  and other offsets.

                                SUMMARY

    Open World has served the Congress well, earning strong bipartisan 
and bicameral support. This modest budget request, representing a 
restoration of the 2012 level, will enable the Open World Leadership 
Center to continue to make major contributions to an understanding of 
democracy, civil society, and market economies in regions of vital 
importance to the Congress and the Nation. This powerful global network 
continues to make a significant and positive mark on long term 
developments in strategically important countries. This Subcommittee's 
interest and support have been essential ingredients in Open World's 
success.

    Senator Shaheen. Thank you very much.

                   LIBRARY OF CONGRESS CORE SERVICES

    Dr. Billington, I am going to begin with you. You described 
a number of very impressive, very important programs, as part 
of your testimony, that are operated by LOC. But one of the 
things that struck me is that you said that part of your budget 
request was critical to maintain the Library's core services.
    Can you talk about which of those programs that you 
outlined you would include as part of the Library's core 
services?
    Dr. Billington. Core services of the national library, 
which is the core of what we do, are to acquire, preserve, and 
make maximally accessible to Congress and the American people a 
wide-ranging, comprehensive, unequalled collection of the 
world's knowledge, and the closest thing we have to a mint 
record of American creativity.
    The reduction, the $86 million reduction since 2010, 13 
percent of the base budget, has been distributed through all of 
our core services, because practically everything impacts 
everything else. The unique services that the Copyright Office, 
the National Library Service for the Blind, and the 
Congressional Research Service provide, all represent core 
services, and all have been impacted by cuts.
    We are, for instance, acquiring about 400,000 fewer 
collection items. We will be doing significantly less 
cataloguing. Cataloguing supports the entire library system of 
the United States, and we are also now providing a new 
bibliographic framework for most print materials. Access to 
knowledge throughout the whole library system is very much 
dependent on Library of Congress research efforts, as well as 
on the Library's direct delivery of services.
    Preservation is extraordinarily important, and here we have 
a 30-year mass deacidification plan, where we have done a great 
deal, but we are now administering some very serious cuts to 
this program. These are significant cuts, fairly evenly 
distributed. We have lost 24 analysts and lawyers in the 
Congressional Research Service. Copyright has had significant 
losses. We had 186 people retire in the buyout; we are now down 
to 1,338 fewer positions than we had before we even had started 
our massive digitization project.
    So the reductions have been very painful, but evenly 
distributed because everything relates to core services of the 
three special services we render, plus the work of the national 
library itself.
    I particularly mention preservation, also the storage at 
Fort Meade, as absolutely critical because collection materials 
now are piling up. We are 10 years behind in the agreed upon 
30-year program to construct 13 modules. A request for the 
fifth module is in the Architect of the Capitol's budget. 
Module 5 is extremely important to the core requirements to 
address overflow and make the collections accessible.
    So both in terms of personnel lost, in terms of the 
distributed pain among the various core functions, it is 
difficult to separate out specific activities because they are 
so interrelated. Elements of the Library's core work have been 
added sequentially over time by congressional mandates. They 
all contribute to the core business of being the world's most 
comprehensive library, never more needed by America than in 
this Information Age when so much of our economy, our 
international competitiveness, and our internal educational 
system rely on the collections and services we provide. We are 
also now serving 37 million primary documents of American 
history and culture online, together with usable, dependable 
commentary by our curators.
    So we are really only asking for funds for core services, 
and we are distributing the pain fairly equally throughout the 
whole institution.
    Senator Shaheen. Thank you, Dr. Billington. My time is up. 
I very much appreciate your passion for the topic, but given 
the 5-minute time limit we have, maybe we can ask that we try 
and limit answers as well.
    Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairwoman.

                     CONGRESSIONAL RESEARCH SERVICE

    Dr. Billington, Congressional Research Services, you have 
asked for an increase of about $8 million. The number of 
requests that you have been able to fulfill in the 
Congressional Research Service has gone down the last several 
years.
    Is that fewer requests, or are you just physically able to 
complete fewer requests? So you have had fewer requests in CRS, 
or are you just able to complete fewer requests due to funding? 
What is the case?
    Dr. Billington. There isn't any less demand. In fact, 
during the recent period, there have been points where there 
has actually been an increased demand.
    What has happened has been that CRS, including the new beta 
Web site, which is Congress.gov, has provided more and more 
fact sheets and publications that cover a variety of requests.
    There has sometimes been a dip, but it is not because of 
lack of demand. We are taking care of requests more 
efficiently, particularly with the new Web site, which is 
really quite revolutionary and quite important for the delivery 
of information.
    Senator Hoeven. Are you able to keep up with the requests, 
the number of requests? Are you able to meet the demand within 
the Congressional Research Service, CRS? Are you able to meet 
the demand for the requests that you get?
    Dr. Billington. Well, we are trying to. There are two 
problems. We have lost some key people. For instance, a top 
Asian analyst, a top intelligence analyst, and we have lost a 
wide range of other people. When you lose 24 analysts, you lose 
some rather key assets.
    The same thing is happening within the Library itself for 
support activities. Take the Manuscripts Division. We have 63 
million manuscripts, including the papers of most Presidents 
between Coolidge and Washington, which include a whole lot of 
other historical material. We have lost three key curators from 
the Manuscripts Division who were probably the best in their 
business. We lost 186 people in the buyout. We targeted the 
buyout, however, we still lost key staff.
    In CRS, in particular, where analysts are taking on 
additional expertise to cover gaps, the staff is becoming 
progressively thinner; once we lose them, it is hard to replace 
them. The loss of 1,338 staff positions does represent some 
degradation of capacity. So far, we are keeping up with it. We 
haven't had protests, but the quick responses that are often 
necessary are likely to be slowed down a little bit. And the 
ability to cover adequately all of the important issues before 
the Congress is also at stake.

                  CRS WORKLOAD DEMANDS AND BUDGET CUTS

    Senator Hoeven. But at this point, you are able to meet the 
caseload. At this point, you are able to meet the demand. You 
are fulfilling the requests you get. You are not backlogged.
    Dr. Billington. We are meeting the requests, but the 
timeframe is getting strung out just a bit. We have not had 
serious complaints yet, and we are covering the breadth of 
topics fairly well. It is just that this is lengthening the 
time of the response. A lot of it, we have been able to 
compensate for with our new Web site and the focus of our 
efforts.
    But yes, this is going to be an emerging problem and, of 
course, we will give it certain priority. But the CRS staff are 
sharing in the furloughs as well; the 3 days of furlough 
between now and the 7th of September, which is cutting 
everybody just a little bit.
    Senator Hoeven. Thank you, Dr. Billington. Appreciate it.
    Senator Shaheen. Senator Boozman.
    Senator Boozman. Thank you, Madam Chair.

                       INCREASING RELIANCE ON CRS

    Dr. Billington, I know that all of us, as legislators, 
understand that the most important thing that we can do as 
legislators is make informed decisions as we deal with these 
really very, very important things that come across our desk. 
The world and our domestic situation is a pretty complicated 
place these days. I really feel like CRS is an invaluable tool 
in helping us.
    One of my concerns is that we are undergoing the same staff 
reductions as everybody else in the House and the Senate. One 
of my concerns is, as we lose staff, that we are going to rely 
more on the Library of Congress, more on CRS to do the job. 
Both have alluded to earlier, again, my concern is are we going 
to be able to do this with continuing cuts to CRS, making sure 
that we don't have the infrastructure in place to meet the 
needs of the Congress.
    Can you talk, and you have talked at length about it, but 
the other problem is what is that going to do to your people 
that have been there a long time, that have other 
opportunities? What is that going to do to your staff 
retention, things like that, as we go forward?
    Talk a little bit more about if you see continued cuts, the 
impact of CRS service to Congress as they need more help 
because of their own staff cuts. And then also the impact, what 
it is going to do to your personnel as far as keeping people 
that have other opportunities because of their experience, how 
you are going to be able to retain them?
    Dr. Billington. Well, there is no question that this is 
hard on people. Almost 90 percent of the CRS budget is for 
people. More than 60 percent for the Library as a whole is for 
people. People are, in a sense, our first priority.
    But the average age at the Library of Congress is 50 years 
old with 16 years of service; and at the higher levels, which 
is what CRS analysts generally are. This also applies to the 
senior curators who are enormous assets to the Nation and to 
the Congress with their foreign language capacity and other 
expertise. These experts are aging. So we need a succession 
plan, which we are working on very hard.
    Continuous budget cuts undoubtedly are a problem. We are 
going to lose more people. And as staffing gets stretched out, 
individuals will have to cover more and more competencies. We 
are very fortunate to have such an enormous cadre of very 
experienced people who are dedicated to their work. But that is 
definitely going to be a long term, or even a medium and short-
term problem, that people will be leaving, taking early 
retirement. As you know, the CRS staff is a shared resource for 
the entire Congress.

                   LOSING GROUND THROUGH BUDGET CUTS

    Senator Boozman. Right. Let me ask you one other thing real 
quickly that some people, I think we have the thought that the 
budget cuts are kind of like turning off a faucet and then 
turning it back on. Turning the faucet off and then being able 
to turn it right back on.
    The reality is--and I have had a lot of experience on the 
public works committee in the Congress--you get in a situation 
if you don't repair things, then it gets worse and worse. And 
instead of it costing a minimal amount of money to repair, you 
get in a situation where the infrastructure is no good, you 
essentially have to tear it out and it is much, much more 
costly.
    Can you talk a little bit about the impact of not taking 
care of the things that we have got?
    Dr. Billington. This is really crucial because if you miss 
a year, you won't make it up the next year, you will have to 
double the amount expended to catch up.
    We acquire between 2 and 2\1/2\ million analog items every 
year. We add 11,000 items every day to the collection. The 
Library of Congress is the Nation's strategic information 
reserve in the Information Era. We acquire all kinds of things, 
and we will, if we miss a year, not necessarily be able 
subsequently to recover. That begins a slow decline which 
multiplies, compounds itself as you go along. This is the death 
sentence of any great institution.
    And for us to lose the greatest repository of useful 
information, mediated by an extraordinary staff, would be 
incomprehensible to the world, and a disservice to the American 
people.

                AMERICA'S STRATEGIC INFORMATION RESERVE

    I could go into all kinds of examples. I am over time here, 
but let me just say something about this business of being 
America's strategic information reserve for the long term. 
There are two parts of the Library that are never mentioned; 
one of them is the Federal Research Division (FRD), which does 
contract research work for the executive branch using the 
Library's collection. The only piece of paper that the 9/11 
Commission found that described the scenario of what happened 
on 9/11, was found through an obscure Arabic publication that 
FRD located. We, alone, had collected this publication.
    The Law Library of Congress was able to restore much of the 
historic law of Afghanistan because our overseas offices and 
the Law Library itself had copies of legal materials from 
Afghanistan, not of everything, but of enough to restore the 
memory, which was being systematically erased by the Taliban.
    Consider the Library's long-term capacity with a 
multiplicity of unusual languages; who would have thought that 
Kosovo, Burundi, even Afghanistan would be the places we would 
need to know more about? We have tripled our exchanges with 
Iran in recent years.
    Unfortunately, we have a culture where everyone likes to 
talk and nobody likes to read much. But there are immense 
resources that future generations are going to want to have for 
the long run. Things like telephone books, railroad schedules. 
You can tell about environmental evolution by having timetables 
of railroads that have been developed in Africa. That is how a 
lot of environmental research is based.
    The immensity and variety of these collections is a 
national treasure, and is becoming more important at the time 
when the funding pressures generally are looming. We have tried 
to honor this by our modest request this year. And the loss of 
personnel is a very significant problem. You asked for our 
priority, these are our priorities: the people and the 
materials. It is very simple.
    Senator Boozman. Thank you.

                      MASS DEACIDIFICATION PROGRAM

    Senator Hoeven. Dr. Billington, I want to follow up on the 
preservation issue that you have raised, because I understand 
that one of the programs that is at risk is the de-
acidification program.
    I wonder if you could share with us why the Library 
believes that program is so important, and what happens if we 
do not continue to fund that? What happens to the collection 
that we are trying to preserve?
    Dr. Billington. Preservation is the most neglected problem. 
We are a throwaway society and 80 percent of all silent films 
made in this country no longer exist, if you go right down the 
list. And the reason is because everything in a mass 
democratic, participatory society is recorded on perishable 
materials.
    We have the biggest mass de-acidification program going. It 
is roughly on target, but we are having to cut it quite 
significantly. This is a valuable program, because we can 
prolong the life of paper-based items--books, manuscripts--at 
least 300 years.
    Senator Shaheen. I am going to interrupt because I have a 
couple of specific questions about the program.
    What percentage of the collection is, at this point, 
targeted for the de-acidification?
    Dr. Billington. We have a 30-year plan for de-
acidification. We have done 10 million single sheet manuscripts 
and we have done 3.5 million bound volumes out of 8 million 
that were projected to be done over a 30-year period.
    Senator Shaheen. And can I ask, what is the value of that 
collection? Has anyone given the collection a value?
    Dr. Billington. It is very hard to assign a value. The 
first thing I did when I got to the Library was try to get the 
collection evaluated. It is very difficult to do this, and 
there are no authoritative figures, but I can get you a rough 
evaluation if you would like. We will compute it.
    Senator Shaheen. Well, I am just trying to figure out the 
cost impact, because I assume if we don't continue this 
program, then ultimately we lose the collection and we lose the 
value of those items.
    Dr. Billington. Really, the best estimate we ever had was 
that 75 million books in libraries across the country are 
seriously brittle. This was a long time ago, it was just an 
estimate--but about 75 million bound volumes were becoming 
untenable; that is, the paper was turning brown. It crumbles. 
It just disintegrates. This is also true of the physical media 
on which sound and music, sound and sight, audiovisual 
materials are stored.
    We built with private money, the world's best audiovisual 
conservation center out in Culpeper, Virginia, which is doing a 
fantastic job. We have the biggest and most important de-
acidification program of paper-based things: books, bound 
volumes, manuscripts. Everything, you have to realize, is on 
perishable material. Preserving these collections is the price 
of having a mass participatory, democratic society, and we are 
proud of that.
    But somebody has to preserve it, and this falls to us 
because other people don't do it. They don't have the long term 
mission or perspective.
    So we are in danger of losing a great deal of what we have. 
Almost all analog items, at least anything published since 1850 
when paper began to be made with high wood pulp content. If you 
would like, Madam Chair, we will get you an estimate of this.
    Senator Shaheen. We can follow up with your office to get 
some more of the specific questions answered.
    [The information follows:]

    The Library's plan from the inception of the Mass Deacidification 
Program has been to treat as many as 8.5 million books and 30 million 
manuscript sheets over a 30-year period (fiscal 2002-2032). As of the 
close of fiscal year 2012, the Library is slightly ahead of target, 
having deacidified more than 3 million books and more than 10 million 
manuscript sheets. A target of 8.5 million books represents roughly 25 
percent of the bound volume collection. A target of 30 million treated 
manuscript sheets equates to about 45 percent of the overall manuscript 
collection. The anticipated quantity of work is based on a sample 
survey of the collections held by the Library in the early 1990s and on 
assumptions about the use of acidic paper by current publishers.
    We are unable to assign a monetary value to these collections. The 
books are predominantly from the Library's general collections and have 
relatively modest artifactual value, while the manuscript materials are 
very unique and of high value. The Library's accounting for the value 
of collections, based on Federal Generally Accepted Accounting 
Principles (GAAP, as defined in Federal Accounting Standards Advisory 
Board or FASAB standards) is that ``the collections are priceless and 
therefore a financial value cannot be placed on them, and their value 
is not presented on the balance sheet.''

              COLLECTIONS FOR SPECIFIC CONSTITUENT GROUPS

    Senator Shaheen. You talked a little bit in your statement 
about the importance of the Library's collection for the blind.
    Do you also have a collection to help the hearing impaired?
    Dr. Billington. For the hearing impaired, well I don't know 
exactly whether we do.
    We certainly do have a great deal for the visually 
impaired. We have ways of magnifying materials in the 
audiovisual center. There is quite a good deal out there that 
is accessible to all users.
    Incidentally, we have a marvelous new head of the National 
Library Service for the Blind and Physically Handicapped here, 
who is herself blind. She has really given us a fresh 
appreciation of the need, even as we are cutting budgets, to 
develop more Braille because that is the closest thing to 
reading for the visually impaired community. You can't serve 
all needs with talking books, which we were the leaders in. You 
cannot deal with maps. You cannot deal with mathematics. You 
cannot deal with a lot of things which you can with Braille, 
which is the closest approximation to reading.
    We have a new set of prizes we are going to be giving with 
private money for learning to read programs. We are a real 
resource for K through 12 education. We have a massive 
digitization program and we are training teachers and 
increasingly, we hope, librarians to be knowledge navigators, 
who can deal with all of the various forms of knowledge that 
Congress needs to have access to. The American education system 
and the economic system need to have knowledge navigators that 
can get through the tsunami of available information.
    We store 37.5 terabytes of digital information that other 
people produce, and we have 303 partners throughout the country 
who are trying to archive what is important on the Internet. We 
have a quarterback role to play that was a congressional 
mandate.
    So we are doing an awful lot of things with an awful lot of 
good people.
    Senator Shaheen. Thank you, Dr. Billington. My time is up.
    Senator Hoeven.

                        PARTNERING OPPORTUNITIES

    Senator Hoeven. Dr. Billington, your last comment goes 
right to my question and that is partnering opportunities; 
opportunities to partner. Obviously when you are pressed for 
dollars, then you have got to leverage the dollars that you 
have.
    So, for example, Congressional Research Services, are there 
opportunities to partner with any other organizations, such as 
the Government Accounting Office, or the Congressional Budget 
Office, or somebody else? Are there partnering opportunities to 
do more, for example, with CRS?
    Dr. Billington. We have only two sources of funding 
basically. Overwhelmingly, it is the Congress that supports 
this Library.
    For certain innovative projects, for example the World 
Digital Library, which is in seven languages, private support 
is available. This project has put something online for every 
country in the U.N. That is all being done with private 
philanthropic money.
    Partnerships often are dangerous because you are dealing 
with either commercial or political organizations, or those 
subject to a particular agenda. Our sole client is the Congress 
of the United States, and answering all questions with a 
certain amount of confidentiality must be respected. And we 
have a knowledge-based democracy that is getting complicated. 
You need impartial sources that do not get into the advocacy 
business, but give you the nonpartisan, objective facts.
    Partnerships are possible if they respect the fact that a 
nonpartisan, objective center for knowledge is essential to the 
Congress' making of laws and oversight of the Government. 
Similarly, the Law Library of Congress does a lot of work for 
the judiciary, because it is the biggest law library in the 
world, particularly for international law.
    These are important functions that cannot be compromised. 
They are unique in avoiding advocacy, avoiding partisanship, 
and trying to lay things out objectively. And for that matter, 
they must be able to mediate all kinds of requests and save all 
kinds of materials that document the American experience.
    So we do want partnerships, but it has to be pure 
philanthropy. We don't have a commercial stream. We don't have 
a board of governors. The Congress of the United States, 
including the Joint Committee on the Library of Congress, which 
is the oldest joint committee of the Congress itself, is really 
our governing body and, of course, the appropriations 
committees' annual appropriation is our governing body.
    We can enter into partnerships, but we have to be careful 
to make sure primarily that we address the needs of our 
clients, the Congress of the United States first of all, and 
the American people second of all, and then finally creative 
people everywhere who look to us, particularly now that our 
Website is so active.
    Everything we do is based on congressional mandates. We are 
the keepers, in effect, of a national legacy collection that we 
have created. The Congress has created national registries for 
recorded sound, for film, for American folk life, all of these 
things. So it is a unique and absolutely fascinating 
undertaking that is going to be of increasing value to America. 
And we are enormously grateful, the American people should be, 
to Congress for sustaining this.

                  FURTHER EXPLORATION OF PARTNERSHIPS

    But partnerships, yes. We are going to have to explore new 
ways and we are working on that. But we are not going to have 
an open door for all potential partners, unlike most other 
cultures with a commercial stream, because we are mediators of 
knowledge and information, and we have to do it objectively, 
and we have to do it as inclusively as humanly possible.
    Senator Hoeven. Well, you are going to find that we are 
going to continue to be resource pressed, and so, I am trying 
to find options and offer opportunities where you can try to 
leverage your resources. And I would suggest looking for some 
partnering opportunities.
    One example, perhaps there are some things that you can do 
in CRS. There may be some partners that you can bring in that 
would meet your criteria and might very much want to do it just 
to be part of the work that you do.
    There may be options to do some partnering or leveraging in 
other aspects of your programs. I don't know if that requires 
some structural changes or not.
    In recordkeeping, for example, maybe you don't have to keep 
every single record yourself. Maybe there are opportunities 
either to keep some records in partnership with some other 
institutions. Maybe there is some duplication where an 
institution keeps records and artifacts, and you keep records 
and artifacts, and you are both keeping them, and maybe you can 
work together and have some kind of partnership agreement where 
one or the other keeps them. That may be an option.
    Also in the recordkeeping area, does electronic record 
retention offer you some opportunities? I don't know. Those are 
some of the things, though, that I think you are going to have 
to explore and bring forward in terms of your budget and what 
we do, because you yourself just pointed out, and rightly so, 
that you have reduced $86 million since 2010. And we know that 
we are going to be financially constrained in 2014 just as you 
are in 2013.
    So I think that you really are going to have to look for 
either some structural changes, or some partnering 
opportunities in order to do the things you do and preserve the 
level of quality that you have because of the resource 
challenge, or you are going to just not be able to do some of 
these things that you want to do. That is my sense.
    And so, what I am offering is if all of your great folks 
come up with some ways to do some of these things, we want to 
be helpful.
    Dr. Billington. Well we are, in fact, involved in a lot of 
partnering arrangements. We have, as I say, 303 partners for 
the National Digital Information Infrastructure and 
Preservation Program.
    For the World Digital Library, which is largely supported 
by philanthropic gifts, we have partnership relations whereby 
78 countries are providing us with digitized material to put on 
the World Digital Library.
    So these are partnership relationships and we have a great 
deal of those, but I think you are absolutely right. We will 
explore additional opportunities. The difficulty is that in 
partner relationships, the partners want to determine the 
agenda of what we do very often. And we have to be sure that we 
are being responsible agents of the funds that are basically 
given to us by the taxpayer directly in the legislative branch.
    But I think your suggestions are excellent. We would like 
to pursue them with you, and thank you for reinforcing the 
idea.
    Meanwhile, we cannot lose the momentum that we have, 
because once you miss a year on a scientific periodical, it is 
extremely difficult to make that up. We have an enormous number 
of people who are concerned about science, and engineering, and 
so forth, for whom we have enormous resources in all kinds of 
languages, and there now are more players in the world who rely 
on this information. If you miss a year, if you have to 
severely restrict either your acquisitions, or your 
preservation, or your access, you are not going to recover 
because you are doubling what you have to have the following 
year, and that is just not going to happen in the current 
funding environment.
    So we are trying to make sure that we are responsible to 
the Congress, which has created and sustained this operation by 
modest requests and, I think, active partnerships. I appreciate 
the thought, and we look forward to working with you in getting 
specific suggestions.
    Senator Shaheen. Thank you, Senator Hoeven.
    Senator Boozman.
    Senator Boozman. Thank you, Madam Chair.

                              CORE MISSION

    I agree, we certainly need to look outside the box for ways 
to stretch our dollars as much as we can.
    Our States, Arkansas, North Dakota, New Hampshire, 
wherever, can do lots of things. But truly the only people that 
can do the job of the national library are yourselves in doing 
that core mission. I think in these very difficult economic 
times, the key is focusing on the core mission, and making sure 
that we do a good job in that regard. And maybe some of the 
things where we did mission creep a little bit, which we all 
have a tendency to do, we can reevaluate.
    But again, I understand and fully support the concept that 
this is something that is unique to you all, and you have a 
great charge in maintaining the Library.
    Ambassador O'Keefe, we appreciate you being here and it is 
always good when you are testifying with somebody who has other 
stuff, you don't get asked as much. We do appreciate your hard 
work and all you do.
    The House has been opposed to putting your funding and 
really wants to mix that with the Department of State in regard 
to Open World.
    Can you tell us how your program is different than the 
Department of State programs, and what you do that makes you 
unique compared to the things that they are trying to do?

      OPEN WORLD LEADERSHIP CENTER AS A LEGISLATIVE BRANCH AGENCY

    Ambassador O'Keefe. Yes, sir, Senator. I can do that.
    I would lay out three points that are really critical and 
then talk about a fourth element that is more long-term. The 
first thing that I mentioned in my remarks was that as a 
legislative branch agency, we have more latitude to function in 
countries when relations get a little sour between executive 
branches. It does not matter which administration; these things 
happen.
    The second point is that, unlike the State Department, we 
work for you. And if there is a request by a member, if there 
is a need for us to be in a particular country, we take these 
requests, provided the board approves the resolution.
    The third point that is very unique is it's not simply that 
the folks who come on this program have their eyes opened by 
seeing how open our legislators and legislatures are, but the 
fact that they do home stays, and are impacted by the power of 
these communities. When these delegates come, they don't want 
to stay in an American home because they don't speak the 
language. Often, it is their first time here. It is a scary 
thing.
    And almost universally when they finish the program, and I 
talk to them, I ask, ``Well, what was good?'' They say, ``You 
know, the home stay was so great, I got to see the U.S. from 
the inside out.''
    Then in the long term, think about that last comment by 
Ambassador McFaul. He works for the State Department. He has 
many more millions in assistance and in exchange programs for 
Russia than we spend there. And why is it that the Open World 
alumni are the most dedicated, the most open to working with 
America?
    I tell you, it is because they come here, they come to the 
Hill. They come to your offices. They see your staff. They see 
you. They stay in these 7,200 communities throughout the United 
States. This is creating a whole generation of individuals who 
understand our transparent governance. Are they democrats? Who 
knows? But they are inclined to support democratic process in 
their own country.
    And that, at the end of the day, is good for us because 
they have a good impression of the U.S. and a good impression 
of what happens here.
    Senator Boozman. Thank you.
    Thank you, Madam Chair.
    Senator Shaheen. Thank you.
    Ambassador O'Keefe, I am going to continue along the line 
of questioning that Senator Boozman began.
    You talked in your opening statement about additional 
funding to expand the program this year. I noted that your 
funding has actually been reduced over the past 3 years from 
$12 million to $8 million.
    I wonder, as you are looking to expand, first of all, how 
are you making a determination about where to expand? What 
countries do you want to get into? And secondly, what is 
happening to the other countries in which you were working in 
those programs, are they suffering as a result of expansion 
into new areas?

                          OPEN WORLD EXPANSION

    Ambassador O'Keefe. Madam Chairwoman, for the reduction to 
$10 million from $12 million, what we did was, I think as 
Senator Hoeven suggested, we actively sought interagency 
collaboration.
    We received from USAID $1 million for Serbia over 2 years, 
and then additional funds for other countries to supplement our 
activities. But also, we have gifts, $500,000 last year and we 
have about $200,000 in cost shares. So the way we have 
strategized is to find additional funds.
    But the other thing we have done is renegotiate our 
logistics contract, so it is reduced by quite a bit. We have 
also asked embassies, instead of using a logistics contractor, 
which adds 30 percent to our costs for certain embassies in 
central Asia and the Caucuses, we have asked them to buy 
tickets, get the J-1 Visas, and that has saved us a lot of 
money.
    So what we try to do every day is to find ways to be more 
efficient, but not give up our basic programs. We have reduced 
our numbers somewhat in Russia. We are down about 100 in that 
country. But aside from that, we have maintained the numbers in 
the other countries.
    Senator Shaheen. How do you determine what countries you 
are going to expand into?
    Ambassador O'Keefe. I can give several examples. We had 
requests from members, for example, the chairs of the Kosovo 
Caucus and the Mongolian Caucus, to move into those countries. 
It goes to the Board, the Board considers and approves it, and 
then we give you notification 90 days before delegates arrive.
    The Board is not always convinced, in which case, we don't 
do it. So a majority of the Board are Members of Congress--you 
are actually on the Board--and it is a good litmus test. If 
they are convinced, then I feel it is a good program to go 
into.
    Senator Shaheen. And is that decision made in collaboration 
with any other Government agencies, with any other 
consideration of what diplomatic or strategic goals we might 
have around the world?
    Ambassador O'Keefe. Yes, ma'am. I always clear it with the 
regional bureaus of the State Department, the directors there, 
and the desk officers. And they also go to the ambassador to 
make sure that they are comfortable with this.
    And so, we do not want to walk into a situation where we 
disrupt, perhaps, some sensitive things that are going on.

                  HOW OPEN WORLD DELEGATES ARE CHOSEN

    Senator Shaheen. And what kind of due diligence is done on 
the leaders who are chosen for the program?
    Ambassador O'Keefe. We have a nomination process. So we try 
to go to trusted partners.
    Senator Shaheen. For example?
    Ambassador O'Keefe. For example, when we bring people from 
Central Asia, we go to the embassies. They will have AID folks 
take a look at it. We will go to, let's say, Rosa Otunbayeva, 
the former President of Kyrgyzstan. I talked to her and have 
asked her to recommend good, young folks.
    We have gone to the parliaments of some of these countries 
in connection with some of the staff in foreign relations, 
foreign affairs.
    Senator Shaheen. Have you had any experience where you 
discovered that people were not appropriate to be part of the 
program, and how did you handle that?
    Ambassador O'Keefe. We have had 20,000 and there have been 
a few. One group clearly came because they wanted to shop and 
goof off, and on the second day I called them in and I said, 
``I have a plane ticket for you to go home tomorrow morning. If 
you are not going to be part of this program, you are not 
welcome.''
    I had another group from a country, parliamentarians, who 
liked to drink, and they went out to Orem, Utah for their 
program. And they were not behaving very well, and I talked to 
the host organizer, and I said, ``Send them home. You don't 
have to put up with this.'' And he said, ``No.'' He said, ``Let 
me work with them.'' They did and the amazing thing was they 
established a productive relationship. Their hosts often went 
and visited them in their home countries.
    So these things happen. They are pretty rare. What you do 
get sometimes are people who are not as enthusiastic as you 
would like them to be. But the selection process has been good. 
You met some Serbian, young Serbian parliamentarians, I 
believe, a few weeks ago and those are the best.
    Dr. Billington and the Board directed me to bring one-third 
of our people between the ages of 25 and 30, and that was one 
of those groups.
    Senator Shaheen. Thank you.
    Senator Hoeven.
    Senator Hoeven. Dr. Billington, you have testified to the 
importance of preserving our Nation's priceless manuscripts 
through a process called de-acidification. Did I say that 
right?

                PRIORITY OF MASS DEACIDIFICATION PROGRAM

    Should you make some of these reductions, are you going to 
continue to make that a priority? And do you continue to keep 
this preservation program moving forward? The de-acidification 
program to preserve important documents, do you intend to make 
that a priority and keep it going?
    Dr. Billington. We have a 30-year program. We are doing not 
too badly, but it is premised on there being some continuity of 
the funding. We have had to drastically reduce the amount this 
year. But the program is pretty much dependent upon Federal 
appropriation.
    There is a problem, because there is only one commercial 
producer whom we have worked with a long time, so we are 
getting pretty good rates on it, but they may not be able to 
continue themselves. So there is a need to have the continuity 
of funding; it is a general problem when you have a long-term 
project like this.
    De-acidification is very important because it not only 
takes the acid out of basically wood pulp-based paper, which is 
still widely used, but it puts it in an alkaline base, which 
not only reduces the risk of the acid, but also increases the 
longevity of the paper.
    It is a unique process, but there is only one company that 
does it on a massive scale, and they may, at some point, decide 
that diminished business reduces their enthusiasm or even their 
viability. So it is rather complicated.
    I might ask on this and on the partnership question that my 
deputy get in a word here because he handles a lot of these 
arrangements, and he can add a good deal to it, so Mr. Dizard.
    Mr. Dizard. Thank you.
    Senator, I will be brief. I will say one of the reasons why 
mass de-acidification is an area where we had to make some cuts 
this year is because it is one of our largest contracts. We 
don't have many contracts, and that is one where we have had to 
make quick reductions. We have to go to contracts rather than 
additional furlough days.
    But I will say Dr. Billington has talked about the 
importance of mass de-acidification. We will look this year 
perhaps at information technology funding to transfer money to 
mass de-acidification.
    Senator Hoeven. Good. Thank you.

                             COPYRIGHT FEES

    In the Copyright Office, can you do more with fees there to 
take some of the pressure off your budget?
    Mr. Dizard. Currently, about two-thirds of the Office is 
funded with fees. In the statute, in the Copyright Act, there 
is a careful directive to balance between the competing needs 
of Congress for policy advice, as well as the deposits that are 
given to the Library of Congress through the Copyright Office.
    They are in the process of a study now to look at that; 
they do periodic reviews of fees. There is a fee study going on 
right now that will be prepared for submission to Congress at 
the end of the year.
    The fees have increased fairly dramatically over the last 
10 years. If you continue to increase fees, registration is a 
voluntary system, and you risk lessening the public record of 
copyright ownership. You also risk lessening the submissions 
for registration that go into the Library's collection. So we 
have to be careful with just automatically raising the 
Copyright Office fees.
    Senator Hoeven. Your budget request for 2014 is $52.85 
million: $33.6 million fees, $19.2 million from appropriations. 
Is it still working, or are you having trouble in the Copyright 
Office? How is that budget working? In other words, I am trying 
to make sure that you are still able to provide those 
copyrights.
    Mr. Dizard. Right. Like other parts of the Library, the 
Copyright Office is strained now because of the appropriation 
reductions. The fees are not guaranteed. It looks like this 
year, we might be a little under where we anticipated fees 
would be. So it is definitely a strain.
    It has affected registration processing because we are 
starting to see a backlog growing again. And we are also having 
an impact on the policy functions of the Office in terms of 
assistance to the executive branch in international trade and 
copyright negotiations. So it is starting to have an impact.
    Senator Hoeven. Well again, I am just trying to understand 
if there are adjustments we need to make to make sure the 
Office works well. That is something, obviously, we want to 
continue.
    Mr. Dizard. Right.
    Senator Hoeven. So are there things we can do? That is the 
only question that you should be talking to the analysts about.
    Mr. Dizard. Okay.
    Senator Shaheen. Thank you.

                    HOW OPEN WORLD MEASURES SUCCESS

    Ambassador O'Keefe, I want to continue to talk about some 
of those 20,000 leaders that you have brought to the United 
States.
    Can you talk about how you analyze the impact of the 
program in their home country, and on policies? What kind of 
outcomes do we keep, are we looking for? How do we determine if 
this is a success or not?
    Ambassador O'Keefe. Yes, ma'am.
    First of all, we do try to pick people who are emerging 
leaders; they have some leadership role, but not a big one. And 
so, we do track to see if they rise into higher positions, and 
so, we see who gets promoted, who ends up as a governor, who 
gets into the regional Dumas or parliaments. That is one 
measure.
    The second measure is partnerships, and those really have a 
good effect. So if you have, let's say, a sister court 
relationship, then you are introducing something very 
fundamental into a country: rule of law that is not terribly 
corrupt, and relatively fair and open.
    Another area that we look for is how they work in their 
community. So we do track to see if, let's say, we had someone 
who had come over here to look at issues of domestic violence. 
One was a radio personality and a blogger who went to 
Louisville.
    When he got back to his city, he started a radio program 
about educating his listeners, because as you know, domestic 
violence, 30 years ago in the United States, was looked at much 
differently than it is today. And these are the sort of 
grassroots breakthroughs that we do track.
    We get about 100 results a month, and a few of them are 
pretty humdrum, and some of them are pretty dramatic.
    Senator Shaheen. And are those measures that you can share 
with this subcommittee--along with what you have found from the 
people that you have worked with?
    Ambassador O'Keefe. Yes, ma'am. At the annual board 
meeting, we have our strategic plan, and we have measures 
against the goals that we have. And so, I will provide that to 
you and to the staff.
    Senator Shaheen. That would be great.
    [The information follows:]

  Open World Leadership Center Strategic Plan, Fiscal Years 2012-2016

                              INTRODUCTION

    As Open World moves further into its second decade, it has built 
substantial expertise in conducting a program unique in the legislative 
branch. Because the thousands of participants have given such high 
marks to its effectiveness and quality, our approach remains one where 
we will not sacrifice quality for convenience. Also, one profound 
insight our delegates mention is the accessibility of our elected 
officials and accountability to the citizens of their jurisdictions. A 
third powerful element, again consistently praised by our guests, is 
the impact of home stays. One delegate succinctly described ``seeing an 
America I didn't know existed'' and another ``seeing America from the 
inside out.'' We are therefore working with a very successful program 
that needs only marginal changes. Bearing in mind that quality will not 
be comprised, we will continue our trend of reducing unit cost per 
appropriated dollar, of adjusting the strategies for nominations to 
capture the youngest generation of young professionals as a significant 
portion of finalists, of working with our many host organizers to make 
our programs relevant, and of fostering partnerships and projects 
involving alumni and hosts.

Background
    Congress launched Open World exchanges for emerging Russian leaders 
in May 1999, in response to a speech that Librarian of Congress James 
H. Billington had recently given to senior Members of Congress on the 
future of Russia. In 2000, Congress created a separate legislative 
branch entity with a public-private board of trustees to manage the 
exchange program. The new administering agency, the Open World 
Leadership Center, opened its doors at the Library of Congress in 
October 2001. Congress made the other post-Soviet states, as well as 
Russian cultural leaders, eligible for Open World in 2003, and 1 year 
later extended program eligibility to any other country designated by 
the Center's board. In July 2006, the board approved new exchanges for 
Azerbaijan, Georgia, Kyrgyzstan, Moldova, and Tajikistan, and continued 
the original exchange with the board's approval, in 2008 Open World 
initiated programs for Kazakhstan and Turkmenistan, bringing the number 
of countries participating in Open World to nine. In 2009, 1,390 
participants came to the United States on Open World exchanges.
    In 2010, 1,343 participants came to the United States on Open World 
exchanges with a strong legislative focus. State legislatures were 
major partners in sponsoring the delegations. The year kicked off with 
the first-ever hosting of legislators from Azerbaijan and Moldova and 
ended with a visit by regional legislators from the Russian republic of 
Chechnya.
    In 2011, Open World exchanges focused on giving delegates 
significant exposure to Federal, State, and local legislators, the 
structure and functions of legislatures, and the legislative process. 
1,234 participants were hosted across the United States. The program 
expanded its reach to Armenia, with that first group focusing on 
women's issues.

Strategic Plan
    The Open World Strategic for 2012-2016 builds on the excellent work 
done for the previous plan. In it, we have added goals that will 
strengthen our work with Members of Congress and their constituents and 
will continue to promote our legislative identity. Using the principles 
of the Government Performance and Results Act, our performance measures 
are both challenging and feasible. Our critique included an effort to 
ensure that our goals were measurable, and that, given our extremely 
limited number of staff, actually doable. Our four goals encompass:
  --Serving as a model agency;
  --Becoming a recognized resource that connects member of Congress and 
        their constituents to political and civic leaders of 
        participating countries;
  --Adapting the Open World model to encompass demographic changes and 
        programs for newly selected countries; and
  --Diversifying funding.
Mission
    To enhance understanding and capabilities for cooperation between 
the United States and the countries of Eurasia by developing a network 
of leaders in the region who have gained significant, first-hand 
exposure to America's democratic, accountable government and its free-
market system.

Core Values
  --Integrity.--Striving for consistency of actions, values, methods, 
        measures, principles, expectations, and outcomes.
  --Innovation.--Through teamwork and creativity serving as an 
        incubator of great ideas for emerging leaders of Eurasia.
  --Cooperation.--Communicating openly and clearly with others; working 
        together as a team to achieve common goals.
  --Respect.--Treating others with fairness, tolerance, and tact.
  --Excellence.--Setting an example of how an agency can accomplish its 
        mission in the most cost-efficient and effective way.
  --Service.--Offering meaningful programs and experiences that will 
        benefit our delegates and communities that host them.
  --Trust.--Having full confidence that all will per-form their best.

                  STRATEGIC PLAN FISCAL YEAR 2012-2016

Strategic Goal 1: Quality And Effectiveness
    Goal.--Serve as a model agency providing quality, cost effective 
programming that meets the objectives of the Open World community.

    Outcomes:
  --Overhead costs to remain at 7 percent.
  --Delegates, hosts and facilitators rate programs highly.
  --Participants have had the opportunity to share their knowledge with 
        American hosts.
  --Nominations process is transparent and produce's delegates with 
        superior professional qualifications.

    Objectives:
  --Modify the nomination process to improve quality of nominees.
  --Improve quality of U.S. programs.
  --Enhance the effectiveness of outreach and alumni programs.
  --Increase the number of host recognition events.
  --Create mechanism in which facilitators and former alumni 
        coordinators are an essential part of quality and 
        effectiveness.
  --Regularly review safeguards to ensure vulnerabilities in the 
        implementation of the program.

    Performance measures:
  --Cost per participant per appropriated funding.
  --Number of delegates with successful programs per survey of 
        facilitator reports.
  --Number of partnerships sustained or formed.
  --Number of projects undertaken.
  --Number of outstanding U.S. Supporters of Open World Recognized.
  --Number of delegate presentations (as a percentage of total 
        delegates).
  --Number of Open World community participants engaged in OW Social 
        Media.
  --Amount of media coverage.

Strategic Goal 2: Legislative Identity
    Goal.--Serve Members of Congress by becoming a recognized resource 
that connects them and their constituents to political and civic 
leaders of participating countries.

    Outcomes:
  --Members of Congress and their staff meet regularly with Open World 
        delegations.
  --Members of Congress provide ideas to Open World on specific 
        programming.
  --Members of Congress ask Open World to arrange parliamentary 
        exchanges, particularly to districts/States.
  --Constituent organizations, e.g. service organizations and 
        international visitor councils, seek Open World delegations, 
        expertise, and networking resources.
  --Constituent organizations provide positive feedback to Members of 
        Congress.

    Objectives:
  --Systematically inform Members of Congress about Open World's 
        legislative identity.
  --Have Chair and members of Open World Board meet with key chairs and 
        ranking members to explain Open World as a resource.
  --Regular communication with Members of Congress, their staff, and 
        their constituents to highlight successes and opportunities.
  --Partner with organizations that will increase our effectiveness in 
        serving members.
  --Ensure that all programming includes a legislative component.

    Performance Measurements:
  --Meetings between delegates and Members of Congress or their Staff.
  --Number of delegates hosted by Members of Congress.
  --Number of communications with Members of Congress and their staff.
  --Number of legislators and staff sponsored or co-sponsored by Open 
        World.

Strategic Goal 3: Breadth
    Goal.--Adapt the Open World model to encompass demographic changes 
and programs for newly selected countries.

    Outcomes:
  --At least 30 percent of participants are under 30 years of age.
  --Young leaders from additional strategically important regions 
        travel to the United States to experience America's democracy 
        and free-market economy, and to discuss models for solutions to 
        common problems.
  --Members of Congress, their staff and constituents interact with 
        young leaders from newly selected countries.
  --Young leaders from strategic regions exchange ideas with 
        professional counterparts.
  --We form a network of young professionals in the United States 
        interested in hosting counterparts.

    Objectives:
  --Establish criteria and priorities for adding countries, regions or 
        themes.
  --Explore programming options in the Balkans.
  --Explore programming options in countries contiguous to current Open 
        World countries.

    Performance Measurements:
  --Number of countries;
  --Number of participants;
  --Number of delegates under 30 years old;
  --Average age of delegates;
  --Percentage of delegates under 30 years old in total number of 
        delegates; and
  --Percentage of Open World delegates from countries other than 
        Russia.

Strategic Goal 4: Funding
    Goal.--Diversify funding.

    Outcome:
  --Center has sufficient, reliable funding sources.

    Objectives:
  --Increase cost shares.
  --Foreign entities fund/cost-share programs.
  --Raise additional, non-appropriated funds.

    Performance Measures:
  --Total amount of money contributed in thousands.
  --Value of Interagency Transfers.
  --Value of Cost-shares.
  --Value of cost-share as a percentage of total appropriation.
  --Value of private funding.

                    IMPLEMENTING THE STRATEGIC PLAN

    The Open World Leadership Center's Strategic Plan for fiscal years 
2012 through 2016 is guided by the above mentioned four goals and their 
respective objectives. These goals and objectives promote the mission, 
vision, and values of the center. They will be revisited annually to 
allow for midcourse adjustments and changes as events progress.
    As appropriate, objectives listed under each goal will be 
incorporated into our grant guidelines, and included in each agenda for 
delegates on site. The nominations process will take into account the 
objectives for the profiles of nominees. The center has developed on a 
set of metrics to be used to gauge the process made on these 
objectives.

                      UPDATING THE STRATEGIC PLAN

    The Open World Leadership Center Strategic Plan is a dynamic and 
organic document, subject to review and revision. It will be updated 
based on the results of three major evaluation processes.
Annual Review
    The Executive Director and the Board will review the plan at its 
annual meeting. The director will report on progress toward each using 
the performance measures.
    Based on that review, the Board will either confirm the out-year 
objectives (as highlighted in the performance measures), or revise 
those objective, and where necessary require new measures or 
modifications.
Midplan
    In 2016, the Executive Director will undertake a full and in depth 
review, including members of the Board of Trustees as active 
participants in that activity. This review will determine if major 
revision is necessary.
Major Revision
    During the penultimate year of the plan, fiscal year 2015, the 
center will convene its planning ``community'' of key stakeholders and 
center staff to undertake the next major revision/rewrite for the next 
Strategic Plan period.

    Senator Shaheen. As I am sure you are aware, one of the 
criticisms of the Open World program, and you talked about it 
in your statement, was that this was a duplication of programs 
that were conducted in other areas of the Federal Government. 
And that we are spending money, given the tight budget 
constraints that we are under, and we are duplicating a program 
and spending money to do that.
    I know that one of the issues that has been raised in the 
past is the potential to get private donations to help fund 
more of the program, or even my understanding was that there 
was a suggestion that the program really should stand on its 
own at some point with total funding from other sources as 
opposed to an appropriation.
    Can you talk about where you are in that exploration? What 
else might you need in order to be able to fund the program 
through the private sector?
    Ambassador O'Keefe. Yes, ma'am.

                       OPEN WORLD OUTSIDE FUNDING

    We have very modest donations. It is about $500,000 a year. 
We are able to leverage the funds that you appropriate to us, 
and find cost shares, and interagency transfers, and in-kind 
contributions. And so, for the $10 million in 2012, we had 
about $3.5 million in transfers and cost shares, and about $2.4 
million of that was in-kind.
    What we are seeking this year is an even greater amount of 
interagency transfers. And what really does help us, as I 
mentioned before, is being in the legislative branch, being a 
little bit creative and independent, and also being really 
flexible. So it helps us attract other agency money to do 
programs because they know that if they give us money, we are 
going to deliver a very cost effective program. And as I say to 
them, I said, ``Look, we're doubling your money. You give me a 
buck, I'll put up a buck, and both of us are going to win.''
    Senator Shaheen. Do you have any statutory constraints on 
your ability to raise money in the private sector?
    Ambassador O'Keefe. No, ma'am.
    Senator Shaheen. You could do that now if you chose to.
    Ambassador O'Keefe. Yes, and we do. We do raise money in 
the private sector. Our biggest issue right now is that for 
many of the foundations, because we are not a 501(c)(3), they 
have within their guidelines a requirement to be one. And so, 
we are shut out of a certain number of possible donors because 
of that, unfortunately.
    Senator Shaheen. Thank you.
    Senator Hoeven.

                    LIBRARY'S SOCIAL MEDIA PRESENCE

    Senator Hoeven. Mr. Dizard, talk just a little bit about 
how the Library is using social media.
    Mr. Dizard. We have had a fairly aggressive social media 
program. We have blogs in different areas of the Library. We 
also use Twitter and Facebook. I will just give some examples 
of our followers, so to speak. We are approaching half a 
million Twitter followers and probably about 100,000 on 
Facebook.
    We use these social media, in essence, to get people 
exposed to our services, and our programs, and our collections. 
Flickr is a good example where we are mainly putting our prints 
and photograph collections on those. And in both, increasing 
the use of our collections online, but also bringing people 
into the Library to use the analog materials.
    Senator Hoeven. Good. It strikes me as that you would have 
real opportunity. I mean, with your resources and the talents 
of your people, it just seems to me it is a great way for you 
to really leverage, and reach out, and show people what you 
have----
    Mr. Dizard. That's right.
    Senator Hoeven [continuing]. That may be of great value to 
them.
    Mr. Dizard. That is exactly how we use it.
    Senator Hoeven. Yes. And I think from a long-term 
perspective, it will help you with funding too because of just 
the demand for your services in terms of how we approach our 
colleagues and advocate for the budget for the Library of 
Congress.
    Mr. Dizard. Right.
    Senator Hoeven. So I just think it is a good opportunity. I 
am glad to hear you are using it.
    Mr. Dizard. Good.
    Senator Hoeven. Thank you.

                 OPEN WORLD AND OTHER FUNDING PARTNERS

    Ambassador, actually the chairwoman covered the main point 
that I wanted to make, and you did too, and that is that, 
again, with budget compression, your ability to partner and 
find not only other foundations and charitable entities, but it 
looked to me that USAID was a source of funding in one or more 
of your endeavors.
    Ambassador O'Keefe. Yes, sir.
    Senator Hoeven. So anything we can do to help you with that 
because with sequester, now you are about $8 million, I think. 
Obviously, the House is putting a very significant amount of 
pressure on your budget.
    Ambassador O'Keefe. Yes, sir.
    Senator Hoeven. So, you are going to continue to see that 
type of budget pressure. But I think one of the best cases we 
can make for you, or help you make, you make the case very well 
in terms of the quality of your programs and the need for a 
legislative branch ability to bring people to interface here 
from other countries, which is different from executive branch 
programs. So, you make those cases very well in terms of why 
you are unique and important, but we are going to have to help 
you find ways to partner and leverage for you to keep your 
asset base up now. Maybe this will change as we get things back 
on track.
    Ambassador O'Keefe. Yes, sir.
    Senator Hoeven. So is there anything else that we should be 
doing to try to help you partner, either with private sector or 
even other agencies, like Federal agencies, USAID or some of 
these others? Are there some opportunities we should be trying 
to garner?
    Ambassador O'Keefe. As you know, Senator, agencies are 
under these circumstances, very careful about partnering, and 
for better or for worse, it takes a fair amount of convincing.
    The appropriation process is a complicated one. Obviously, 
if funds would be appropriated from foreign operations to us, 
that would be wonderful, but I don't know how feasible that is.
    But what I would like to do, sir, is to outline a few ideas 
and provide the chairwoman and you, some thoughts and 
possibilities.
    Senator Hoeven. I think there are some possibilities there 
because other agencies are going to find themselves in this 
same place you are. So they also need to leverage their effort.
    Ambassador O'Keefe. Yes, sir.
    Senator Hoeven. It may create some opportunities, and maybe 
we can help break down some of those silos.
    Ambassador O'Keefe. Okay. I would love to do that, and I 
have been making the exact case that you had mentioned that we 
can help you stretch your dollar.
    Senator Hoeven. Right, and we are on other subcommittees, 
and on the full appropriations committee, and so we certainly 
could encourage people to work together.
    Ambassador O'Keefe. Thank you.
    Senator Hoeven. Thank you.
    Senator Shaheen. Thank you, Senator Hoeven.

                            MURRAY AMENDMENT

    I have only one other area that I would like to explore, 
Dr. Billington and Mr. Dizard, and that has to do with an 
amendment that was added to this subcommittee's appropriation 
last year to try and expand the books for the blind and the 
physically handicapped to include persons with traumatic brain 
injuries. And the significance of that was to try and address 
unmet needs of returning veterans from Iraq and Afghanistan.
    I understand that after the bill was reported, the 
Copyright Office and the Judiciary Committee expressed concern 
about unintended consequences from adding this provision into 
the bill.
    I wonder if you can provide us with an update on whether 
there are still negotiations ongoing and what you have heard 
from the Copyright Office and the Judiciary Committee. And 
then, if there any other efforts underway at the Library to 
address the needs of our returning veterans with traumatic 
brain injuries?
    Mr. Dizard. We were originally talking to Senator Murray's 
office about the amendment, and essentially there were two Acts 
that were linked. Their eligibility was linked to the NLS, 
National Library Service for the Blind and Physically 
Handicapped eligibility; Senator Murray wanted to change that 
eligibility to include reading-disabled individuals.
    Our only concern was that this not have an adverse impact 
on NLS. In short, if it was done simply to increase NLS 
eligibility and add 10 million more people there, we would be 
flooded. There was language then put in the report that 
excluded impacts on NLS. So that was our only involvement in 
it.
    The Copyright aspect dealt with current international 
negotiations that were dealing with services for the blind and 
international obligations and treaties, and there was a 
hesitancy not to come at odds with our international 
negotiating posture.
    From our perspective with veterans, they are in the NLS 
statute. There is a veteran's preference, and we are 
increasingly serving veterans through our program who are 
returning and who meet the NLS eligibility standards.
    Senator Shaheen. Thank you.
    Any further questions, Senator Hoeven?
    Senator Hoeven. No.
    Senator Shaheen. Then I would like to thank our witnesses 
very much for being here this morning.

                          SUBCOMMITTEE RECESS

    The subcommittee will stand in recess until May 14 at 9:30 
a.m. when we will meet again in this room to take testimony on 
the fiscal year 2014 budget for the Secretary of the Senate, 
the Senate Sergeant at Arms, and U.S. Capitol Police. Thank you 
all.
    Senator Hoeven. And I just want to say again, thank you for 
coming today and, you know, during these times where we have to 
reduce our spending in Congress, it's tough. And so, I just 
want you to know, we realize that and appreciate it. And we 
really appreciate the great job that you do. So thank you so 
much.
    Senator Shaheen. Thank you.
    [Whereupon, at 10:59 a.m., the subcommittee was recessed, 
to reconvene subject to the call of the Chair.]

</pre></body></html>
